<html>
<title> - THE UNITED NATIONS: URGENT PROBLEMS THAT NEED CONGRESSIONAL ACTION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
   THE UNITED NATIONS: URGENT PROBLEMS THAT NEED CONGRESSIONAL ACTION

=======================================================================

                                BRIEFING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 25, 2011

                               __________

                            Serial No. 112-3

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
64-009                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdccbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                BRIEFERS

Mr. Brett Schaefer, Jay Kingham fellow in International 
  Regulatory Affairs, Margaret Thatcher Center for Freedom, the 
  Heritage Foundation............................................    10
Ms. Claudia Rosett, journalist-in-residence, Foundation for 
  Defense of Democracies.........................................    32
Mr. Hillel C. Neuer, executive director, UN Watch................    44
Mr. Peter Yeo, vice president for public policy and public 
  affairs, United Nations Foundation and executive director, 
  Better World Campaign..........................................    53
Mr. Mark Quarterman, senior adviser and director, Program on 
  Crisis, Conflict, and Cooperation, Center for Strategic and 
  International Studies..........................................    59
Mr. Robert Appleton, former chairman, United Nations Procurement 
  Task Force.....................................................    68

         LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE BRIEFING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
Mr. Brett Schaefer: Prepared statement...........................    12
Ms. Claudia Rosett: Prepared statement...........................    34
Mr. Hillel C. Neuer: Prepared statement..........................    46
Mr. Peter Yeo: Prepared statement................................    55
Mr. Mark Quarterman: Prepared statement..........................    61
Mr. Robert Appleton: Prepared statement..........................    70

                                APPENDIX

Briefing notice..................................................   102
Briefing minutes.................................................   103


   THE UNITED NATIONS: URGENT PROBLEMS THAT NEED CONGRESSIONAL ACTION

                              ----------                              


                       TUESDAY, JANUARY 25, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2272 Rayburn House Office Building, Hon. Jean Schmidt 
(acting chairman of the committee) presiding.
    Mrs. Schmidt. I want to call this briefing to order. This 
briefing of the Committee on Foreign Affairs will come to order 
at 10:06 in the morning. Unfortunately, our chairwoman, Ileana 
Ros-Lehtinen, is unable to be in Washington this week. She is 
at her family's side. Her mother is in failing health from 
complications with Alzheimer's and so I would ask that we all 
remember she and her mother and her family in this very 
troubled time. It's very difficult to lose a loved one, 
especially a parent. So Ileana asked me to chair this briefing 
and I was very gracious and happy to accept.
    I will now recognize myself for 7 minutes to read the 
chairman's opening statement, which should be considered 
attributable to her. As I said, this is her statement.

          ``As I said at this committee's last hearing on 
        United Nations reform, `With significant leadership by 
        the United States, the United Nations was founded on 
        high ideals. The pursuit of international peace and 
        development, and the promotion of basic human rights 
        are core, historic concerns of the American people. At 
        its best, the U.N. can play an important role in 
        promoting U.S. interests and international security, 
        but reality hasn't matched the ideals.'
          ``Accordingly, U.S. policy on the United Nations 
        should be based on three fundamental questions: Are we 
        advancing American interests? Are we upholding American 
        values? And are we being responsible stewards of 
        American taxpayer dollars?
          ``Unfortunately, right now, the answer to all three 
        questions is `No.'
          ``Here's some simple math: With no strings attached, 
        we pay all contributions that the United Nations 
        assesses to us--22 percent of their annual budget--plus 
        billions more every year. According to the OMB, in 
        Fiscal Year 2009, the U.S. contributed well over $6 
        billion to the U.N.--at a time of high unemployment, 
        skyrocketing deficits, crushing debt, and other great 
        economic and fiscal challenges to our nation.
          ``What have we gotten in return from the U.N.? Here 
        are a few examples.
          ``The U.N. Development Program fired a whistle-blower 
        who revealed that the United Nations Development 
        Program's office in North Korea was not being managed 
        properly, and was being exploited by Kim Jong Il's 
        regime.
          ``In 2008, a Senate subcommittee found that: The U.N. 
        Development Program's local staff was selected by the 
        regime, and UNDP paid staff salaries directly to the 
        regime--in foreign currency--with no way to know the 
        funds weren't being diverted to enrich the regime; UNDP 
        prevented proper oversight and undermined whistleblower 
        protections by limiting access to its audits and 
        refusing to submit to the U.N. Ethics Office's 
        jurisdiction; the regime used its relationship with 
        UNDP to move money outside North Korea; and UNDP 
        transferred funds to a company tied to an entity 
        designated by the U.S. as North Korea's financial agent 
        for weapons sales.
          ``The UNDP briefly pulled out of North Korea, but now 
        they're back, and this time they can select staff from 
        a list of three candidates hand-picked by the regime, 
        not just one candidate.
          ``That's what passes for reform at the U.N.
          ``U.S. taxpayers are also paying over one-fifth of 
        the bills for the U.N.'s anti-Israel activities, 
        including the U.N. Human Rights Council, a rogues' 
        gallery dominated by human rights violators who use it 
        to ignore real abuses and instead attack democratic 
        Israel relentlessly. The council was also the 
        fountainhead for the infamous Durban Two conference and 
        the Goldstone Report.
          ``One more example: An independent Procurement Task 
        Force uncovered cases of corruption tainting hundreds 
        of millions of dollars in U.N. contracts. In response, 
        the U.N. shut down the Task Force. When the head of the 
        U.N.'s oversight office tried to hire the chairman of 
        the task force, former U.S. prosecutor Robert Appleton, 
        as the top investigator, the U.N. Secretary-General 
        blocked it.
          ``Well, the U.N. may not want him, but we're pleased 
        to have Mr. Appleton here today.
          ``Ironically, the U.N.'s current chief investigator--
        who has reportedly failed to pursue cases--is now under 
        investigation himself for retaliating against whistle-
        blowers!
          ``Ambassador Susan Rice says that the U.S. approach 
        to the U.N. is, `We pay our bills. We push for real 
        reform.' Instead, we should be conditioning our 
        contributions on `reform first, pay later.'
          ``In the past, Congress has gone along by willingly 
        paying what successive administrations asked for--
        without enough oversight. This is one of the first true 
        U.N. reform hearings held by this committee in almost 4 
        years, but it won't be the last.
          ``Right now, the vast majority of countries at the 
        U.N. General Assembly pay next to nothing in assessed 
        contributions, creating a perverse incentive because 
        those who make decisions don't have to pay the bills. 
        So I,'' meaning Ileana Ros-Lehtinen, ``am going to 
        reintroduce legislation that conditions our 
        contributions--our strongest leverage--on real, 
        sweeping reform, including moving the U.N. regular 
        budget to a voluntary funding basis. That way, U.S. 
        taxpayers can pay for the U.N. programs and activities 
        that advance our interests and values, and if other 
        countries want different things to be funded, they can 
        pay for it themselves.
          ``This will encourage competition, competence, and 
        effectiveness.
          ``The voluntary model works for UNICEF and many other 
        U.N. agencies, and it can work for the U.N. as a whole.
          ``One more point: Some of the U.N.'s defenders like 
        to cite some good U.N. activities to gain support for 
        funding bad ones. However, we're not here to play 
        `Let's Make a Deal' with hard-earned U.S. taxpayer 
        dollars. Each U.N. office, activity, program, and sub-
        program, country by country and function by function, 
        must be justified on its own merits.
          ``UNICEF programs to help starving children cannot 
        excuse the United Nations Relief and Works Agency's 
        having members of Hamas on its payroll. The World 
        Health Organization's vaccination programs cannot 
        excuse the Human Rights Council's biased actions.
          ``My colleagues, reforming the U.N. should not be a 
        Republican or Democrat issue. It is in the interest of 
        all Americans. And so I hope and trust that U.N. reform 
        efforts will be strongly bipartisan.''

    That concludes the chairwoman's opening remarks. Following 
the opening remarks by our ranking member, we will follow the 
protocol of other briefings in this Congress and proceed 
directly to oral statements by our presenters.
    I am now pleased to recognize our distinguished ranking 
member, Mr. Berman, for his opening remarks.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Berman. Madam Chairwoman, thank you very much for 
yielding me this time and initially let me say that I think all 
of us, our thoughts and our prayers are with Ileana as she is 
by her mother's side at this very difficult time and understand 
why she's not here.
    Madam Chairwoman, the flaws, shortcomings, and outrages of 
the United Nations, both past and present, are numerous and 
sometimes flagrant. These include the Human Rights Council's 
obsession with and biased treatment of Israel. As the 
chairwoman pointed out, the membership, a rogue's gallery of 
human rights abusers who have worked to highjack that 
organization's agenda; the anti-Israel vitriol spewed from 
innumerable U.N. platforms, led by the Committee on the 
Exercise of Inalienable Rights of the Palestinian People; the 
oil for food scandal; sexual violence perpetrated by U.N. 
peacekeepers; the unnecessarily high vacancy rates and other 
problems at the Office of Internal Oversight Services; and the 
overlapping jurisdiction of agencies, the duplications of 
services, and inefficient procurement practices of the U.N. as 
a whole
    And like almost all Americans, I'm repelled by these 
examples of corruption, mismanagement, and bias. But there is 
another side to the U.N. ledger and it's wrong to ignore it. 
The United Nations often plays an essential role in supporting 
American foreign policy and national security interests. From 
UNDP's work organizing the recent referendum in South Sudan to 
the wonderful work of the UNHCR and its efforts to protect and 
resettle refugees to the Security Counsel resolutions imposing 
sanctions on Iran, the U.N. acts as a force multiplier for U.S. 
interests.
    During the Bush administration, we saw a significant rise 
in U.N. peacekeeping costs. Why? Because President Bush 
understood that having blue helmets on the ground reduced or 
eliminated the need for U.S. troops. The U.N. peacekeeping 
presence in Haiti is perhaps the clearest example of how the 
U.N. systems advances our own interests at a far lower cost 
than direct U.S. intervention.
    In an analysis of that U.N. force, the Government 
Accountability Office concluded it would cost twice as much for 
the United States to carry out a similar peacekeeping mission 
using our own troops. So what should we do about the many 
shortcomings we've referenced? I strongly believe that the best 
way to successfully achieve the improvements that are needed is 
to work with our allies to constructively engage the U.N. on a 
reform agenda. Experience has shown that this strategy is much 
more effective than withholding our dues. Not only did previous 
attempts to force us into arrears that the U.N. failed to 
achieve the significant reforms that have taken place in the 
last few years, but they severely weakened our diplomatic 
standing. Had we been in such deep arrears last year, does 
anyone honestly think it would not have impeded our ability to 
get an additional round of Iran sanctions through the Security 
Council?
    The many reform efforts currently underway in New York, 
Geneva, and elsewhere in the U.N. system are a testament to the 
strategy developed under both the Bush and Obama 
administrations to work with the U.N. to enact common sense 
reforms, many of which were laid out in a 2005 report co-
authored by former Speaker Newt Gingrich and Senator George 
Mitchell. The fruits of the Gingrich-Mitchell work were clearly 
evident with the establishment of the U.N. Ethics Office 4 
years ago.
    The same can be said about the creation of an independent 
Audit Advisory Committee, a body now headed by former U.S. 
Comptroller General David Walker, to review the activities of 
the Office of International Oversight Services and the U.N. 
Board of Auditors.
    The recent creation of the U.N. Woman Organization and the 
U.N.'s Delivering as One Pilot Initiative have demonstrated the 
U.N.'s determination to remedy the fragmentation and 
organizational incoherence that have plagued parts of the U.N. 
system and has resulted in overlapping mandates, lack of 
coordination, waste of resources.
    Much more remains to be done to develop a fully transparent 
and financially accountable budget process. Strengthen program 
monitoring and evaluation, streamline the U.N. Secretariat, 
promote a strong culture of ethics and accountability, and 
encourage U.N. agencies to work together to achieve greater 
cost savings. But make no mistake about it, there has been 
progress on the reform front.
    I would also like to take a moment to further discuss the 
issue of the U.N. Human Rights Council. As we all know, the 
council was created to replace the thoroughly discredited Human 
Rights Commission. Unfortunately, the previous administration 
chose not to constructively engage the council in its early 
days, thus ceding the organization to the same block of nations 
who take advantage of every opportunity to attack and to 
delegitimize Israel in international fora. I supported the 
Obama administration's decision to join the council in the 
hopes of reforming the organization and transforming it into a 
serious voice on human rights in the U.N. system.
    In less than 2 years, progress has been made on the 
council. The U.S. has used its voice as the leading global 
advocate for human rights to push strong council action on a 
number of significant human rights abuses from the ethnic 
violence in Kyrgyzstan to the recent standoff in Ivory Coast. 
And the Obama administration deserves significant credit for 
its successful diplomatic campaign to deny Iran a seat on the 
council.
    Notwithstanding these important accomplishments, the anti-
Israel vitriol that all too often emanates from the council and 
the inclusion of serious human rights violators among the 
council's membership remains a deep stain on the U.N.'s 
reputation.
    Madam Chairwoman, in closing, let me just say again that I 
agree with you that the U.N. needs significant reforms. Where I 
think we differ in our approach is the best way to achieve 
those reforms. Based on our experience in recent years, I would 
argue that we have a much greater chance of success if we work 
inside the U.N. with like-minded nations to achieve the goals 
that I think both sides on this committee and in our Congress 
share.
    With that, I yield back my remaining time.
    Mrs. Schmidt. Thank you very much, Congressman Berman. The 
chair is pleased to welcome our six presenters. Mr. Brett 
Schaefer is the Jay Kingham fellow in International Regulatory 
Affairs at the Heritage Foundation's Margaret Thatcher Center 
for Freedom, focusing primarily on the U.N. He previously 
served at the Pentagon as an assistant for International 
Criminal Court Policy from March 2003 to March 2004.
    Ms. Claudia Rosett is a journalist-in-residence with the 
Foundation for Defense of Democracies. She previously worked 
for 18 years at the Wall Street Journal.
    Mr. Hillel Neuer is an international lawyer and the 
executive director of UN Watch, a human rights NGO in Geneva. 
He previously practiced commercial and civil rights litigation 
in New York and served as a law clerk for an Israeli Supreme 
Court Justice.
    We are pleased to welcome Mr. Peter Yeo back to the 
committee. He is currently the vice president for public policy 
and public affairs at the United Nations Foundation and 
executive director of the Foundation's Better World Campaign. 
Mr. Yeo previously served for 10 years as the deputy staff 
director on the committee's Democratic staff, first for ranking 
member Sam Gejdenson, then for our late chairman, Tom Lantos, 
and then for our current ranking member, Mr. Berman, while he 
was chairman.
    Another former Foreign Affairs Committee alum will brief us 
today, Mr. Mark Quarterman. He is currently senior adviser and 
director of the Program on Crisis, Conflict, and Cooperation at 
the Center for Strategic and International Studies. Mr. 
Quarterman previously served at the U.N. in a number of 
capacities for almost 12 years, including as chief of staff to 
the U.N. Commission on Inquiry into the assassination of the 
former Prime Minister of Pakistan and in the U.N.'s Office of 
Legal Affairs and Department of Political Affairs. Before that, 
Mr. Quarterman served as a staff member for our committee's 
Africa Subcommittee and as a program office at the Ford 
Foundation for South Africa and Namibia.
    Last but not least, Mr. Robert Appleton served as the 
chairman of the United Nations Procurement Task Force, a 
specially-created anti-corruption unit that conducted hundreds 
of investigations of fraud and corruption in the U.N. He also 
served as a special counsel and deputy chief legal counsel to 
the Independent Inquiry Committee investigation into the U.N. 
Oil-for-Food Programme, also known as the Volcker Committee. 
More recently, he was selected to serve as the lead 
investigator for the U.N.'s Office of Internal Oversight 
Services, but his selection was not approved, and we'll no 
doubt hear more about that later. Mr. Appleton served for about 
13 years as an assistant United States attorney in the District 
of Connecticut, prosecuting a wide range of national and 
international Federal criminal offenses. Mr. Appleton presently 
serves as director of investigations and senior legal counsel 
in the Office of the Inspector General in the Global Fund to 
Fight AIDS, Tuberculosis and Malaria in Geneva. Mr. Appleton is 
presenting his remarks in his personal capacity.
    Again, the chair thanks all of our briefers and we remind 
them to keep their respective oral summaries to no more than 5 
minutes each, and having watched Ms. Ros-Lehtinen for one time, 
I know she's adamant about the 5 minute rule. So I might give 
you a few seconds over, but don't test the waters.
    Anyway, thank you all for coming and right now, I believe, 
Mr. Schaefer, we will hear your testimony.

    STATEMENT OF MR. BRETT SCHAEFER, JAY KINGHAM FELLOW IN 
INTERNATIONAL REGULATORY AFFAIRS, MARGARET THATCHER CENTER FOR 
                FREEDOM, THE HERITAGE FOUNDATION

    Mr. Schaefer. I would like to thank the committee for 
inviting me to today's briefing.
    The past six decades have seen dozens of reform proposals 
both from inside the United Nations and outside. For the most 
part, these reforms have been ignored, cosmetic, watered down 
or defeated outright. As a result, the U.N. and many of its 
affiliated organizations remain hindered by outdated or 
duplicative mandates and missions, poor management practices, 
ineffectual oversight, and a general lack of accountability.
    A key reason for the lack of reform in the U.N. is the 
practice of granting equal voting rights to each nation over 
budgetary management issues, even though they have vastly 
different financial contributions. The bulk of U.N. member 
states simply do not pay enough to the U.N. for mismanagement, 
corruption, or inefficiency to concern them. For instance, 
Sierra Leone is assessed at 0.001 percent of the U.N. regular 
budget and 0.0001 percent of the peacekeeping budget. The U.S., 
by contrast, is assessed 22 percent and 27.14 percent, 
respectively. Therefore, while Sierra Leone and the dozens of 
other organizations with similar assessments pay less than 
$35,000 per year to the U.N. in these budgets, the United 
States pays billions of dollars.
    With this in mind, it's hardly surprising that the United 
States cares deeply about how the U.N. is managed and how those 
funds are used, but most countries simply don't care very much 
about it. Yet, these are the countries that possess most of the 
votes. The combined assessments of the 128 least-assessed 
countries to the United Nations, enough to pass those budgets, 
totals less than 1 percent of the U.N. regular budget and less 
than one third of 1 percent to the U.N. peacekeeping budget. 
These countries, combined with influential voting blocks can 
and do block U.S. attempts to implement reforms and curtail 
budgets. The U.S. can't fix this problem with diplomacy alone.
    Moreover, while American administrations are often 
interested in pressing for reform, the reform agenda is 
frequently abandoned in favor of short-term political 
objectives. That is why the State Department is rarely 
aggressive in pressing for reform at the U.N.
    The reluctance to press for U.N. reform occurs under most 
administrations, but it has been particularly apparent over the 
past 2 years under the Obama administration as it sought to 
distance itself from the previous administration's policies at 
the U.N. Criticism of the U.N. is rarely uttered by Obama 
administration officials and its U.N. reform agenda is notable 
only for its lack of detail and enthusiasm.
    Luckily, U.N. reform doesn't necessarily require an eager 
administration. Past successful U.N. reform efforts have 
typically shared one thing in common, congressional involvement 
backed by the threat of financial withholding. Congressional 
intervention led to U.S. budgetary restraint in the 1980s and 
the 1990s. It led the U.N. to create the Office of Internal 
Oversight Services, the first Inspector General equivalent in 
the history of the United Nations. And it led the U.N. to 
reduce U.S. assessments earlier this decade.
    Regrettably, Congress has neglected its oversight role in 
recent years. Only a handful of U.N. oversight hearings have 
been held and U.N. reform legislation has not been seriously 
considered. Without Congress spurring action, the U.N. has been 
free to disregard calls for reform.
    Meanwhile, U.S. contributions are at an all-time high. 
Congressional scrutiny is overdue.
    Let me finish my statement by highlighting some reforms 
that I think deserve particular attention. First, the 
discrepancy between obligations and decision making is perhaps 
the greatest impediment to U.N. reform. The U.S. unsuccessfully 
pressed for weighted voting in the 1980s and got consensus 
voting on budgetary issues as a compromise. That compromise has 
since been shattered and the U.N. budget has been approved over 
U.S. objections. Congress needs to revisit the issue and 
consider options to increase the influence of major 
contributors over the U.N. budget.
    Second, the U.N. regular budget has grown even faster than 
the U.S. budget over the past decade. A few things could be 
done to curtail that growth and streamline the budget. 1) 
reestablishing the zero nominal growth policy for the United 
States to the U.N. regular budget which would prevent further 
increases in the future and lead to a gradual reduction through 
inflation. 2) sunsetting all U.N. mandates and revitalizing the 
mandate review. Nearly all U.N. mandates remain unreviewed, but 
if the preliminary reports are indicative, up to half of all 
U.N. mandates could be outdated or irrelevant.
    Finally, the Human Rights Council continues to disappoint. 
The key problem with the council is the membership. Congress 
should withhold U.S. funding to the council until credible and 
serious membership standards are adopted, including forcing 
regional groupings to provide competitive slates for elections.
    In conclusion, if the United States does not press this 
issue and back diplomatic carrots with financial sticks, U.N. 
reform will continue to be sound and fury with little 
substance. The U.N. is patient. It will publish reports and 
promise reforms. Action will always be imminent but rarely 
realized. Nothing perseveres like bureaucratic inertia. I have 
a whole stack of U.N. reports on my desk to prove the point 
that U.N. reform is always promised, but very rarely 
implemented.
    If Congress wants U.N. reform, it must heed the history and 
demand quick action and link specific reforms to financial 
withholding. The U.N. may have five official languages, but the 
bottom line speaks loudest.
    Thank you very much and I look forward to your questions.
    [The prepared statement of Mr. Schaefer follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mrs. Schmidt. Thank you very much. You are right on time. 
Next we have Ms. Claudia Rosett, journalist-in-residence at the 
Foundation for Defense of Democracies. We'll begin when you 
begin.

   STATEMENT OF MS. CLAUDIA ROSETT, JOURNALIST-IN-RESIDENCE, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Ms. Rosett. I'm ready to begin. Thank you.
    Mrs. Schmidt. Thank you.
    Ms. Rosett. My thanks to the committee for the chance to be 
here today.
    The United Nations is an enormous, opaque, labyrinthine, 
and a collective in which the United States, as Brett has just 
described, basically sustains the system. The contributions 
that the United States make are more than the sum of their 
parts. It's not just roughly one quarter of the system-wide 
budget, whatever that is. It's also U.S. credibility, gravitas, 
the headquarters, things that basically mean the U.S. provides, 
in effect, the fixed costs, others hop a ride. And this is a 
system which invites waste, fraud, and abuse.
    But what I'd like to highlight here today is that the 
problem goes well beyond simple theft or waste. The U.N. is not 
like a pilfering clerk. It's an organization unlike many which 
operates across borders, with immunities, moving large amounts 
of goods, personnel, services, and so on. It's basically immune 
to censure. It's really under no jurisdiction of local law.
    This is a system that invites exploitation and what we have 
seen over the years is that the worst of the worst, regimes 
like the former regime in Iraq, like North Korea today, become 
very good at exploiting this. The problem I would like to 
describe is the United States is sustaining a system in which a 
lot of harm can be done even without drawing directly on U.S. 
money. That, for instance, was Oil-for-Food.
    Oil-for-Food did not take U.S. tax dollars. It ran on Iraqi 
oil money. But the U.N. via Oil-for-Food, having put sanctions 
on Iraq then provided cover and sustained a program which 
became the world-wide bonanza of graft. It ended up corrupting 
the U.N. itself and corruption thousands--companies around the 
world, payments to suicide bombers, purchase of convention 
weapons, if not WMD. And the head of the program was alleged, 
in the end, to have been on the take for $147,000, peanuts by 
U.N. standards, but enough if it's somebody who's running a 
significant U.N. program so that it has at least the effect 
that he will not blow the whistle.
    How do you find out what's going on inside the U.N. with 
that kind of leverage? In my experience, it almost always 
requires some kind of very energetic investigation. The U.N. 
does not readily give information up. In Oil-for-Food, we 
discovered a lot because documents spilled out of Baghdad after 
the fall of Saddam. In North Korea, it took very energetic 
efforts over strenuous objections from the U.N. Development 
Program by the then Ambassador for Reform, U.N. Management and 
Reform at the U.N., Mark Wallace, who really went to the mat 
pointing out troubles, and when this lone whistleblower came 
forward who was then fired. And in the end what emerged was 
just this incredible nest of malfeasance.
    I've described it in my written statement, but you had and 
Chairman Schmidt described it in her opening remarks. You had 
North Korean employees handling the checkbook and the accounts 
in Pyongyang. You had transfers on behalf of other agencies via 
an entity tied to North Korean proliferation. You had the 
import of dual-use items into North Korea. There's an exhibit 
in the back of my written testimony showing you how the 
spectrometers, global mapping systems, satellite receiving 
stations imported by the U.N. Development Program into North 
Korea could have been used to make missiles which is one of 
North Korea's big proliferation businesses.
    When this all surfaced, UNDP has also been involved in a 
Burmese currency fiddle which tells us much. I'm happy to 
answer questions on that. It was not broken by the U.N., it was 
broken by a blogger who covers the U.N., Matthew Russell Lee.
    When the Cash-for-Kim scandal broke in North Korea, 
Secretary-General Ban Ki-Moon promised a system-wide inquiry, 
independent inquiry. He backed off that within a week. It has 
never been held. It was a very good idea. As you just heard, 
the U.N. issues endless promises of reform. I've made some 
recommendations about that in the back. The Secretary-General 
was just boasting last week that he actually requires senior 
officials now at the U.N. to disclose their financial 
information. I have two exhibits in the back of my written 
statement which show you what that amounts to. One of them is a 
sheet in which you can check a box showing that you choose not 
to disclose anything at all. The other is Ban Ki-Moon's 
statement which consists of 18 words, nine of which are 
Republic of Korea with no price at all. That's public 
disclosure.
    And I would finally recommend that if there is to be a 
debate over withholding funds from the United Nations as a way 
of imposing leverage, it would be very useful to keep in mind 
that this is an institution which years ago began to regard $1 
billion as a rounding error.
    Thank you very much and I would be happy to answer your 
questions.
    [The prepared statement of Ms. Rosett follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith [presiding]. Thank you very much. Before going to 
Mr. Neuer, I just want to note that Walker Roberts is here--we 
have a number of former staffers--who was a top staffer for 
Chairman Henry Hyde, and Mark Tavlarides, who was chief of 
staff for the Human Rights Committee back in the 1980s and I'm 
sure there are a few others.
    Mr. Berman. They're all here to hear Peter.
    Mr. Smith. Exactly. We'll go to Mr. Neuer now.

 STATEMENT OF MR. HILLEL C. NEUER, EXECUTIVE DIRECTOR, UN WATCH

    Mr. Neuer. Distinguished members of the committee, thank 
you for inviting me here today. The urgent problem that I was 
to address concerns the state of human rights at the United 
Nations. The U.N. Human Rights Council this year undergoes a 
review of its first 5 years of work. How has it performed?
    Let's first recall the history. In 2005, then U.N. 
Secretary-General Kofi Annan called to scrap the old Human 
Rights Commission. He explained why. Countries had joined ``not 
to strengthen human rights, but to protect themselves against 
criticism or to criticize others.'' The Commission was plagued 
by politicization and selectivity. It suffered from declining 
professionalism and a credibility deficit which ``cast a shadow 
upon the reputation of the U.N. system as a whole.''
    To remedy these fatal flaws the U.N. created the council 1 
year later. The 2006 resolution promised a membership committed 
to human rights, that would respond to severe abuses, including 
by urgent sessions. Its work would be impartial and 
nonselective. Today, 5 years later, we ask, Has the council 
redressed the shortcomings of its predecessor? Has it lived up 
to its promise?
    Let us consider first the council's current members. They 
include Bangladesh, China, Cuba, Pakistan, Russia, and Saudi 
Arabia. The newest member is Libya under the dictatorship of 
Colonel Qaddafi. As measured by Freedom House, 57 percent of 
the members fail to meet basic democracy standards.
    Mr. Chairman, imagine a jury that includes murderers and 
rapists or a police force, run in large part by suspected 
murderers and rapists who are determined to stymie 
investigation of their crimes. That was said by Kenneth Roth of 
Human Rights Watch in 2001, but the analogy applies even more 
today.
    Second, let's look at the council's response over the past 
5 years to the world's worst human rights violations. Here's 
what we find. For the one fifth of the world's population 
living in China where millions have suffered gross and 
systematic repression, for the minority Uighur who have been 
massacred, the Tibetans killed, the council adopted not a 
single resolution. Its response was silence. For the peaceful, 
civic activists, bloggers and dissidents in Cuba, who are 
beaten or languish in prison, no resolutions. For the victims 
of Iran, massacred by their own government while the Human 
Rights Council was actually in session, subjected to torture 
rape, and execution, no action. For the women of Saudi Arabia 
subjugated, the rape victims, sentenced to lashes, the council 
looked away. For the people of Zimbabwe who suffer under the 
jackboot of the Mugabe regime, no resolutions.
    Mr. Chairman, apart from a handful of exceptions, the U.N. 
Human Rights Council in the 5 years of its existence has 
systematically turned a blind eye to the world's worst abuses. 
It has failed the victims most in need.
    You may ask then, What does it do with its time? I will 
tell you. To an astonishing degree, the council has reserved 
its moral outrage for demonizing one single country, Israel, 
the only liberal democracy in the Middle East.
    Consider one, in total, the council has adopted some 50 
resolutions condemning countries, of these 35 have been on 
Israel, i.e., 70 percent. All have been one-sided condemnations 
that grant impunity to Hamas and Hezbollah terror and to their 
state sponsor, the Islamic Republic of Iran.
    Two, built into the council's permanent agenda is a special 
item on Israel. No other country is singled out in this 
fashion.
    Three, the council's machinery of fact-finding missions 
exist almost solely to attack Israel. The most notorious 
example is the Goldstone Report, a travesty of justice that 
excoriated Israel and exonerated Hamas. This was not surprising 
given that the mission operated according to a prejudicial 
mandate, a predetermined verdict, and with members like 
Christine Chinkin, who declared Israel guilty in advance.
    Four, out of ten special sessions that criticize countries, 
six were on Israel, four for the rest of the world combined.
    Five, the council has a permanent investigator, Richard 
Falk, mandated solely to report on ``Israel's violations of the 
principles of international law.'' Mr. Falk also happens to be 
one of the leading proponents in this country of the conspiracy 
theory that the 9/11 terrorist attacks were an inside job 
orchestrated by the U.S. Government. Now in response to our 
protest last week, I'm pleased to report that yesterday the 
Secretary-General sent me a letter stating that he condemns the 
preposterous remarks of Mr. Falk and regards him as an affront 
to the memory of the 3,000 victims that perished that day. We 
call on Mr. Ban Ki-Moon to take action to remove Mr. Falk 
immediately.
    Mr. Chairman, the promises of the council's founding 
resolution improved membership, action for victims, an end to 
politicization and selectivity have not been kept. On the 
contrary, if we consider the fatal flaws identified by Kofi 
Annan in the old Commission, every single one applies equally 
today to the new council.
    Thank you.
    [The prepared statement of Mr. Neuer follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Mr. Neuer, thank you very much for your 
testimony and having worked with you, thank you for your 
leadership at the U.N.
    I'd like to now recognize Mr. Yeo.

 STATEMENT OF MR. PETER YEO, VICE PRESIDENT FOR PUBLIC POLICY 
  AND PUBLIC AFFAIRS, UNITED NATIONS FOUNDATION AND EXECUTIVE 
                DIRECTOR, BETTER WORLD CAMPAIGN

    Mr. Yeo. Well, thank you, Mr. Chairman, and Ranking Member 
Berman, for inviting me to appear before the committee today.
    Right now, across the globe, the U.N. stands by America as 
we struggle for democracy, human rights, and world prosperity. 
We need the U.N. to run smoothly because we have a stake in 
where the U.N. is headed. We need the U.N. to continue, even 
hurry, on its current course straight toward a more stable and 
prosperous world that serves America's strategic, economic, 
humanitarian, and political interests.
    As we meet here today, votes in Sudan are being counted to 
determine whether South Sudan should secede. America has 
strongly backed this process with enormous diplomatic and 
financial contribution and in that, we are joined by the United 
Nations which has allocated money, more than 10,000 U.N. 
workers, peacekeepers, and volunteers, to support the 
referendum. The Cote d'Ivoire, where the United States has long 
sought peace and stability, the entire U.N. system holds fast 
for democracy and against genocide.
    The Security Council has called on the nation's defeated 
President to recognize the results of the referendum and U.N. 
peacekeepers now stand as the sole line of protection for Cote 
d'Ivoire's democratically-elected President.
    The U.N. has partnered with America to battle the nuclear 
threat Iran poses. Just last summer, the U.N. Security Council 
imposed its toughest ever sanctions on Iran. Defense Secretary 
Gates heaped praised on the U.N. resolution and EU and others 
have joined America in putting in place tough sanctions that 
are having an economic impact on the Iranian Government.
    In Afghanistan, the U.N. has joined American forces to 
promote security and battle the rise of extremist forces. The 
U.N. provided support for Afghanistan's independent electoral 
authorities and has facilitated the removal of land mines and 
weapons, making Afghanistan safer for civilians and American 
forces.
    And not far from our shores, the U.N. battles mightily to 
stabilize, reconstruct earthquake-shattered Haiti, a country 
with close ties to America. U.N. peacekeepers patrol the 
streets, provide security to many displaced Haitians, train 
Haitian police, and feed nearly 2 million Haitians a day.
    And right here at home, the U.N. is promoting American 
economic interests in creating jobs. For every dollar invested 
by the U.S. in the U.N., American firms receive approximately 
$1.50 in U.N. contracts and other benefits.
    As we've heard from the witnesses who preceded me, the U.N. 
is not a perfect institution, but it serves a near-perfect 
purpose, to bolster American interests from Africa to the 
Western Hemisphere and to allow our nation to share the burden 
of promoting international peace and stability.
    The U.N. now has greatly improved its ability to identify 
and correct waste, fraud, and abuse. The General Assembly 
created the Independent Audit Advisory Committee, a move 
recommended by the Gingrich-Mitchell U.N. Task Force which is 
now headed by David Walker, the former U.S. Comptroller and 
head of GAO. The Secretary-General recently appointed a 
Canadian with decades of auditing and oversight experience as 
Under Secretary-General for Internal Oversight Services. The 
U.N. has also moved aggressively to strengthen its ethical 
culture. A U.N. Ethics Office is in place and all U.N. funds 
and programs created individual ethics offices or agreed to use 
the Secretariat's Ethics Office. Led by a U.N. attorney, the 
U.N. Ethics Office oversees the new financial disclosure 
statements required by U.N. employees above a certain level and 
with fiduciary responsibilities.
    Since 2007, the U.N. has mandated ethics and integrity 
training for all U.N. staff members.
    Over the past 2 years, the U.N. has also taken significant 
steps to ensure that it has the most productive and effective 
work force possible. The U.N. created a professional and 
independent system made up of 15 judges to address employment 
issues. The U.N. decision to join the Human Rights Council has 
also produced tangible results. The U.S. led 55 other countries 
in a successful effort to criticize Iran for its human rights 
violations. Effective U.S. diplomacy has also improved the 
council's ability to address specific countries of concern. 
Nevertheless, some of the most challenging and serious human 
rights violations continue to go unaddressed and the council 
itself places undo focus on Israel.
    As with any public institution, fine tuning the operation 
is a continual process, but the U.N. is a very different 
institution today than it was just 5 or 6 years ago. The U.N. 
has implemented most of the reform recommendations made by the 
congressionally-mandated Task Force on the U.N. and by Paul 
Volcker's Independent Investigation Commission. But further 
progress will not happen unless the United States is at the 
table pressing for changes. And that means we must pay our dues 
to the U.N. on time and in full without threats of withholding 
our contribution. When we act otherwise we send a strong and 
provocative signal that we are more interested in tearing the 
U.N. down than making it better and going it alone, rather than 
working with all sides.
    Over the last few years, as Congress has paid our dues 
without drama and delay, we have been able to work well with 
the U.N. to move forward on many important management changes. 
And polls tell us that this cooperation is what the American 
people want and bipartisan research released by BWC this 
October, 63 percent of Americans support payment of U.S. dues 
to the U.N. on time and in full and 70 percent felt the same 
way about U.N. peacekeeping dues. But in the end, we need to 
our U.N. dues, not just because it's popular, but because it's 
necessary, necessary to maintain a healthy U.N., ready to stand 
by America and our deep and abiding interest in peace, 
stability, and democracy around the world.
    Thank you.
    [The prepared statement of Mr. Yeo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Smith. Mr. Yeo, thank you very much.
    Mr. Quarterman.

STATEMENT OF MR. MARK QUARTERMAN, SENIOR ADVISER AND DIRECTOR, 
   PROGRAM ON CRISIS, CONFLICT, AND COOPERATION, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Quarterman. Mr. Chairman, Ranking Member Berman, 
distinguished members of the committee, I'm honored to have 
been invited to appear before you today.
    As the result of my service with the United Nations, I'm 
well aware of the organization's strengths and weaknesses, as 
well as of its vital role in the world. The U.N. makes real 
contributions to the global good on a daily basis and is often 
the first responder in times of natural or man-made disaster. 
The World Food Programme feeds 90 million people in 73 
countries. The Office of the High Commissioner for Refugees 
supports 34 million forcibly displaced. UNICEF provides 
immunizations to more than half of the world's children.
    Peacekeeping has often been referred to as a force 
multiplier for the United States, but I believe that in a 
broader sense, the U.N. is an influence multiplier for the 
United States as well. And it plays this role in three ways. 
First, the U.N. operates in places where the United States 
might have concerns, but not fundamental interests. An example 
includes Sudan where the U.N. helped to keep the peace and 
played a central role in the recent successful referendum. This 
provides for burden and cost sharing. It allows U.S. interests 
to be addressed without U.S. troops being deployed.
    Second, the U.N. talks to people and parties the United 
States will not or cannot talk to. In Sudan, for example, along 
with the African Union, the U.N. has directly applied pressure 
on the regime in Khartoum to allow the referendum to go 
forward.
    Third, the U.N.'s legitimacy and credibility around the 
world enables it to carry out tasks that governments alone are 
not able to do. Thus, the Pakistani Government asked the United 
Nations to undertake an inquiry into the assassination of 
Benazir Bhutto, their former prime minister, which was my last 
job at the United Nations and something I was honored to do.
    The U.S. remains the most influential member of the U.N. 
and it does more to set the agenda of the organization than any 
other nation. Examples of the United States being outvoted in 
the U.N. come largely from the General Assembly, where the 
principle of one member, one vote pertains, but where 
resolutions are not binding on member states.
    However, the United States has a significant and powerful 
voice in the Security Council, in part because of its status as 
a permanent member with a veto and in part because of the 
initiative that America traditionally and consistently takes in 
the council. For example, the last 2 years of the Bush 
administration was among the most active and productive periods 
for the Security Council and resulted in groundbreaking 
resolutions.
    An emblematic earlier example of U.S. leadership is the 
skillful diplomacy deployed by the administration of George 
H.W. Bush in response to the Iraqi invasion of Kuwait. A more 
recent example of leadership in the council was the Obama 
administration's successful effort to place serious sanctions 
on Iran.
    U.S. leadership and influence in the U.N. results in part 
from its status as the largest contributor to the organization. 
We must not return to the days of withholding funds as some 
have suggested. Withholding funds hurts the U.N. and doesn't 
advance U.S. interests. This does not mean that the United 
States should not take a close look at management and budget 
issues in the U.N. Congress and the Executive Branch must 
ensure that America's contributions which are substantial are 
used effectively, efficiently, and for the purposes intended 
and approved.
    It's necessary for the United States to be actively engaged 
to exercise its influence in the U.N. fully. The Human Rights 
Council is a good example of this. There should be no doubt 
that the Human Rights Council needs reform. Reasonable people 
can disagree about whether the United States should engage or 
stay out. However, only by being at the table can the United 
States bring about the changes necessary to assist it to evolve 
into a more credible vehicle to protect and promote human 
rights around the world.
    No one is fully satisfied with multilateralism. Having 
working in the U.N. I saw that firsthand and felt that. It's 
hard. Multilateralism is very hard and we use it to tackle the 
toughest issues of the global commons, most of which touch on 
fundamental national interests of many countries. It requires 
bargaining, negotiation, and compromise. And it requires that 
in a way that's not unlike the legislative process we see in 
this venerable institution. While most of us are dissatisfied, 
we have to realize that there is no effective alternative 
method of dealing with transnational problems that do not 
respect borders and that have the potential of significantly 
affecting our lives.
    Mr. Chairman, Ranking Member Berman, distinguished members 
of the committee, as I stated at the outset, and as has been 
stated, I served with the U.N. for 12 years. I served Because 
of the organization's ideals and I am proud that they were 
profoundly shaped and influenced by American ideals. I have 
friends and close colleagues at the U.N. who died in the line 
of duty in furtherance of the aims of the U.N. charter, for the 
global good. I honor them for their service and am honored by 
my time in service at the U.N. I believe in the United Nations 
and I want us to work together to help the U.N. to live up to 
its ideals. Thank you.
    [The prepared statement of Mr. Quarterman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mrs. Schmidt [presiding]. Thank you.
    And now we will hear from Mr. Appleton.

   STATEMENT OF MR. ROBERT APPLETON, FORMER CHAIRMAN, UNITED 
                 NATIONS PROCUREMENT TASK FORCE

    Mr. Appleton. I'd like to thank the committee for the 
invitation to appear today. I'm deeply honored for the 
opportunity.
    From 2006 to 2008, I served as the head of the United 
Nations Procurement Task Force, the PTF, a special independent 
anti-corruption investigations unit the U.N. created in the 
wake of the Oil-for-Food scandal, the responsibility to 
investigate fraud and corruption in the operations of the U.N. 
Secretariat, throughout the world, which included all of its 
peacekeeping missions and overseas offices. I reported to the 
Under Secretary-General of OIOS.
    The PTF was temporary, formed for specific purpose and 
independent of the U.N. General Assembly for its funding. Over 
3 years, this 26-person investigation unit comprised of 
lawyers, former prosecutors, white collar fraud specialists, 
and forensic accountants from 14 countries under my direction 
conducted hundreds of corruption investigations, issued 36 
major reports, complete with findings, conclusions and an 
aggregate total of 187 recommendations which included referrals 
to national authorities for prosecution, legal advice and 
proposals based on our previous experience to recover losses 
and damages and recommendations to pursue misconduct charges 
against staff that violated the rules and regulations of the 
organization or committed fraud or corruption.
    Through these investigations we identified at least 20 
major fraud schemes, hundreds of millions in losses and waste 
and more than $1 billion in tainted contracts. Forty-seven 
contractors were debarred for corruption and the PTF marked the 
first time within the U.N. that the external investigations of 
those conducting business with the U.N. were properly and 
thoroughly investigated. A vendor sanctions panel and framework 
began a function and worked well.
    In those cases in which the PTF found fraud or other 
illegality, the results were largely substantiated by national 
courts. In an audit that was conducted by the PTF's operations 
in 2008 by the U.N. Board of Auditors found our methods 
appropriate, staff well qualified, and its existence served as 
a deterrent to fraud and corruption. A number of prosecutions 
by national authorities resulted from or were supported by the 
PTF, all of it explained herein. Many more could have been 
pursued.
    Nevertheless, much success was achieved despite the 
impediments. One of our most significant cases in the Southern 
District of New York, a senior procurement official and an 
agent of a large U.N. vendor were convicted after a 2-month 
trial engaging in $100 million fraud, collusion and bribery 
scheme in connection with a series of U.N. contracts. The 
procurement official was subsequently sentenced to 8\1/2\ years 
imprisonment and the evidence for this case was principally 
gathered by the PTF as contained in its report.
    However, despite the confirmation of the accuracy of the 
findings of the PTT in many cases, most unfortunately, the 
efforts of the PTF were opposed by certain Member State 
delegations who came to the defense of either citizens or 
officials who were nationals or their companies or citizens. 
The U.N. administration accepted the PTF, but showed lethargy 
in moving forward on many of its recommendations to pursue 
matters in civil courts or charging wrongdoers with misconduct.
    Prior to the expiration of the PTF at the end of 2008, the 
General Assembly at the behest of a Member State who opposed 
their efforts commissioned an audit of the PTF which ultimately 
found that we were compliant with U.N. rules, regulations, and 
standards and did not selectively target individuals, regions, 
or countries and the staff was well qualified.
    Hostility to the unique status and independence of the PTF 
for Member States who opposed its investigations finally led to 
the PTF's demise. In 2008, those Member States were able to 
successfully block further funding by the unit and the PTF was 
forced to close. Despite an admonition that the expertise and 
staff were to be incorporated into the OIOS, that did not 
happen. Despite this, PTF's efforts did not diminish and the 
professionalism to accomplish as much as possible did not wane. 
In the final months of the PTF's tenure, we identified--we 
completed five major corruption reports that had identified 
significant fraud and corruption, including a report on fraud 
in Iraq, significant and pervasive fraud in elections, roads, 
and rebuilding in Afghanistan, fraud and corruption in the 
Economic Commission of Afraid, and in several matters involving 
high value contracts for transportation in Africa. Despite 
that, as far as I am aware, and despite the recommendation, 
significant follow up has only been made in one case.
    The vision of the Under Secretary-General at the time for 
Financial Crimes Unit has been scuttled in place of a 
nondescript unit simply known as Unit 5 which until recently 
had but a few investigators and none with serious white collar 
fraud experience. At one time, investigators were informed that 
they were not going to investigate parties external to the 
organization, including tens of thousands of contractors that 
do business with the organization. Even worse, the former PTF 
investigators were subject to harassment and retaliation. Some 
were even the subject of investigations themselves for wholly 
spurious reasons, and when they were cleared by independent 
entities, no public mention was made of this fact.
    In short, all the achievements and advancements that were 
made by the PTF have since lapsed following its conclusion and 
the stark reality is that the ills that the U.N. experienced in 
the wake of the Oil-for-Food scandal are now distant memories 
in the halls of U.N. buildings and unless serious action takes 
place, there is no question history will repeat itself.
    Thank you.
    [The prepared statement of Mr. Appleton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mrs. Schmidt. Thank you very much, and before I give myself 
my allotted 5 minutes, I think Mr. Berman wants to make a 
statement regarding his committee's side.
    Mr. Berman. Thank you very much. Simply to point out that 
this is a briefing, not a hearing because the committee has not 
yet formally organized. Both sides have a number of new members 
and it's my intention to wait until that organizational meeting 
to introduce our side of the new members' group. We're glad to 
have all these members, but we'll wait until the organizational 
meeting which is, as I understand it, now will not occur until 
after we come back from the recess in 2 weeks.
    Mrs. Schmidt. We wanted to get that piece of housekeeping 
out of the way.
    Okay, I'm going to budget myself 5 minutes, which means I'd 
like your answers to be very short and very concise.
    Mr. Yeo and Mr. Quarterman, you have talked about how 
important it is for the United States to pay our assessed dues 
in full, but you've worked in Congress and you know the biggest 
leverage we have with the Executive Branch is the power of the 
purse. Past history contradicts your arguments, like the 1990s, 
when we got substantial reform with the Helms-Biden agreement, 
which conditioned payment of past dues on specific key reforms. 
But I'd like to ask all of our briefers: If the U.N. agencies 
and other Member States know that we're going to pay our 
assessed contribution in full, no matter what, why on earth 
would they agree to real reforms? And the second part: So 
doesn't simple facts and logic call precisely for using our 
contributions as leverage and not just as paying our dues in 
full? I'm going to give you about 20 seconds each to answer 
that.
    Mr. Schaefer?
    Mr. Schaefer. Well, the short answer is that the U.N. 
regards U.S. assessments as an entitlement. They don't think 
that the United States should use those assessments as leverage 
and they resist reform in general. As I mentioned in my oral 
statement, the U.N. is nothing but patient. It is willing to 
outlast and wait for certain individuals to turn their 
attention to other matters. And you have to tie financial 
leverage if you want to get the U.N.'s attention. I mentioned a 
number of specific reforms in my written statement and I'd like 
it submitted for the record, if I could.
    Mrs. Schmidt. Mrs. Rosett?
    Ms. Rosett. There are two levers I have seen have any 
effect, shame and money. Money is far more powerful. The two 
are linked and the thing that I think does matter and should be 
done of the main focuses right away is we endlessly talk about 
transparency at the U.N. It is an endless game in which it is 
promised and again I refer you to that financial disclosure 
form where they disclosed nothing. And the Secretary-General 
boasts about it.
    There are things, especially in the digital age, that are 
both important for security reasons, important for information, 
and important for any reform. There should be enormous pressure 
for the U.N. to actually produce intelligible, consolidated 
databases. If you ask everyone in this room what is the U.N.'s 
system-wide budget you will get answers where actually the 
rounding errors are $5 billion. That's strange. That needs 
remedy.
    Mrs. Schmidt. Thank you.
    Ms. Rosett. Thank you.
    Mrs. Schmidt. Mr. Neuer?
    Mr. Neuer. We've always supported the United States paying 
its fair share of the dues. There's no question that U.N. 
agencies that are voluntary are known and U.S. diplomats will 
tell you to be far more accountable and to operate better. It's 
something that we see in Geneva regularly.
    In addition, there are, of course, U.N. agencies such as 
the Division on the Palestinian Affairs which gets some $5, $6 
million every biennial budget that clearly ought to be anti-
funded.
    Mrs. Schmidt. Mr. Yeo?
    Mr. Yeo. Over the past 5 to 6 years you've seen concrete 
changes in the way the U.N. is run whether it's in terms of 
ethics, oversight, personnel, all of which have occurred 
without any legislative threat between dues and reform, so we 
do not need the threat of withholding dues to actually make 
something happen at the U.N. to make it a more efficient 
institution.
    Second of all, 70 percent of all of America's assessed 
contributions to the U.N. each year are for U.N. peacekeeping. 
As a permanent member of the Security Council, we must actively 
support the creation and the change of any U.N. peacekeeping 
mission. So we already have more power than 187 other states at 
the U.N. that do not have the veto.
    Mrs. Schmidt. Thank you. Mr. Quarterman?
    Mr. Quarterman. Thank you very much. The U.S. has multiple 
needs at the U.N. It needs, of course, to oversee the use of 
its funds to make sure that those funds are used effectively, 
to make sure the U.N. is run effectively. It also has 
diplomatic needs. The United Nations, as Mr. Yeo pointed out, 
puts peacekeeping missions in the field, carries out a variety 
of other tasks as well. The U.S. has substantial influence over 
the shape and organization and deployment of peacekeeping 
missions, but it needs to--but I've seen that U.S. influence 
has lessened when the United States has not contributed and the 
diplomatic atmosphere is less positive.
    Mrs. Schmidt. Thank you. Mr. Appleton?
    Mr. Appleton. Thanks, very briefly, it's the only 
legitimate, real tool that can be used and it's what most 
officials inside the U.N. Secretariat are most fearful of. And 
the irony is that the fear of bad news is and its possible 
effect on donations is the reason why the organization is not 
transparent. Thank you.
    Mrs. Schmidt. Thank you. And in keeping with my policy of a 
firm 5 minutes. I've got 17 seconds left, so I'm going to yield 
back my balance and give Mr. Berman his 5 minutes.
    Mr. Berman. Well, thank you very much, Madam Chairwoman and 
I thank all of you for coming and for your excellent testimony. 
I found a great deal o fit very interesting and educational. 
Mr. Schaefer touches on an issue that I think we have to cope 
with, the notion that 128 of the member countries pay about 1 
percent of the total U.N. regular budget and can drive in a 
non-consensus budget process. The thing is something that I 
think we do have to come to grips with.
    But Mr. Yeo's recent comment is--the comment he just made, 
that 70 percent of American expenditures that are assessed, go 
to the peacekeeping where no peacekeeping occurs if the United 
States doesn't want it to occur because those are ordered by 
the Security Council and we have a veto there.
    It adds a little context to what you were saying, Mr. 
Schaefer. I also find your testimony useful in that it told me 
things I had no idea that there were these regional commissions 
drawing and expending apparently significant sums of money and 
work that I have no idea what they do and I've never heard 
anything about them before. So I thank you for that.
    But I'd like to ask--and the other thing I might note 
though is if I listen to the harshest critics on this panel 
regarding the U.N., apparently nothing that the U.N. does do 
they find to be positive. It did seem to be the glass is 
completely empty sort of position.
    Mr. Neuer, I'd like to ask you a couple of questions. Do 
you agree with the opening statement essentially that the 
United States should not have joined the Human Rights Council? 
That's sort of a yes or no question.
    Mr. Neuer. Thank you. We welcomed the U.S. joining provided 
that they would do certain things.
    Mr. Berman. Do you think that the United States should get 
off that council right now?
    Mr. Neuer. No, we have not taken that position and we 
continue to urge the United States to do the things necessary.
    Mr. Berman. Do you think the United States should withhold 
the amount of dues one assumes is being spent by the Human 
Rights Council or a proportionate share of that dues?
    Mr. Neuer. It's not something we've taken a position on.
    Mr. Berman. You're not advocating that?
    Mr. Neuer. We haven't taken a position on that at this 
time.
    Mr. Berman. Okay. Do you think the U.S. role has produced 
some useful changes at the Human Rights Council?
    Mr. Neuer. Yes, there have been some changes in tone. One 
of them is described in my prepared testimony regarding, for 
example, defending the rights of NGOs and of course, the United 
States has stood with Israel. One example is something that 
happened today regarding the regional groups where the 
Secretary-General Ban Ki-Moon was addressing an Assembly in 
Geneva of all member states and Israel being excluded from any 
of the regional groups in Geneva, while it is a member of the 
western group in New York, it is excluded in Geneva. It was not 
represented when those five groups made their statements. The 
United States' mission stood for principal, stood with Israel 
disassociating itself from the western group's statement 
because Israel was excluded and discriminated against in that 
fashion. That's, of course, something that out to be saluted.
    Mr. Berman. In fact, if you don't mind, I'd like to quote 
in my remaining time that part of your prepared testimony that 
you weren't able to give because you summed it up. ``The 
council's abysmal record''--and I'm quoting you--``comes in 
spite of the determined efforts of a few stakeholders. In this 
regard, we commend the dedicated work of the U.S. delegation in 
Geneva. We have had the privilege to interact with Ambassador 
King, Ambassador Donahoe, and their colleagues, and we greatly 
appreciate their leadership and support. When UN Watch brought 
victims of Libyan torture to testify before the council, a 
string of repressive regimes interrupted and sought to silence 
them. The U.S. delegation spoke out and successfully defended 
the victims' right to speak. We equally appreciate the 
important work of Ambassador Barton and his colleagues at 
ECOSOC in defending the rights of NGOs'' of which your 
organization is one. So I appreciate you sharing this 
information and I yield back the balance of my time.
    Mrs. Schmidt. Thank you to my good colleague from 
California and now I'd like to turn it over to my good 
colleague from New Jersey, Mr. Smith, subcommittee chairman on 
Africa Global Health and Human Rights.
    Mr. Smith. I thank my good friend, the distinguished chair 
from Ohio, for yielding and welcome to the panelists. Thank you 
for your testimony.
    You know, last week, Hu Jintao evaded any meaningful 
accountability for presiding over some of the most egregious 
human rights abuses and violations in the world. By Friday, the 
press in China and I read much of the press were calling it a 
master stroke of diplomacy. At a press conference on Thursday, 
President Obama offered what the Washington Post called in its 
editorial President Obama makes Hu Jintao look good on rights' 
excuses for Chinese human rights violations. He said ``China 
has a different culture.'' Yes, it has a different culture. ``A 
wonderful culture.'' The people of China as expressed in 
Charter 08, desperately want human rights to be protected and 
tens of thousands of people languish in the Laogai simply 
because they wanted democracy and human rights protected, 
including Lu Xiaobo, the 2010 Nobel Peace Prize winner.
    President said they have a different political system. Yes, 
it's a dictatorship. And they rule by guns and force and 
torture. So those excuses were at best lame and I think they 
were very, very enabling and the press in China clearly shows 
that.
    But for the U.N.'s part, frankly, they have failed 
repeatedly; the Human Rights Council, CEDAW, the treaty body, 
which should have and continues to not hold China accountable. 
The Convention on the Rights of the Child treaty body has 
failed to hold them to account. In instance after instance, 
China, except for people like Manfred Nowak who is a great 
piece of torture in China, it is largely just brushed aside and 
the world community looks askance at China's egregious 
violations of human rights. Nowhere is this more egregious in 
my view than in the 30-year program known as the one-child-per-
couple policy where brothers and sisters are illegal, where 
forced abortion is pervasive. It is every woman's story to be 
coerced into having an abortion or an involuntary 
sterilization.
    I met with Pong Piun, a woman who ran the program in the 
1990s and all she kept telling me was that the UNFPA is here 
and they see no coercion. Last week, Speaker Boehner asked Hu 
Jintao whether or not--about forced abortion--and what did Hu 
Jintao say? There's no forced abortions in China. When you 
deny, deny, deny and lie and deceive as they do and that's 
enabled by the UNFPA which has a program there and trains 
family planning cadres, that makes the UNFPA complicit in these 
crimes against women and crimes against humanity.
    Let me just mention a few final points and Mr. Yeo, you 
might want to speak to this. Ted Turner, in December at the 
Cancun meeting on global climate change, said that the U.N. or 
the world needs a one child per couple policy, again, brothers 
and sisters are illegal in China. The only way you enforce it 
is with coercion, heavy fines, and of course, this crime 
against humanity which the Nazis were held to account for at 
the Nuremberg War Crimes Tribunal as a crime against humanity 
because they practiced forced abortion against Polish women.
    Ted Turner said we need one-child-per-couple policy. Upon 
questioning, he said I don't really know the intricacies as to 
how it is implemented. Are you kidding?
    Mr. Yeo, you might want to speak to that. I have held 27 
hearings on human rights abuse in China alone, most of those 
with a heavy emphasis on this terrible attack against women. 
This is the worst human rights violation of women's rights ever 
and we have been largely silent. The U.N. has been totally 
silent. Beyond that, they've been complicit. So if you could 
speak to that and Mr. Yeo, you might want to speak to it first.
    Mr. Yeo. Sure. Thank you, Congressman, first of all, for 
your passionate interest in this issue. You and I completely 
agree that a coercive abortion, coercive family planning and 
forced sterilization is absolutely outrageous. It has no place 
in any type of family planning programs anywhere in the world. 
So we 100 percent agree on this.
    Let me make two comments. First of all, in the context of 
UNFPA's work in China, they have repeatedly indicated to the 
Chinese that they oppose the coercive nature of the one-child 
policy and in the counties in which UNFPA was operating under 
its previous plan, the abortion rate went down, forced 
sterilization rate went down, and the rate at which people had 
access to voluntary family planning went up.
    What's happening now in the context of China is UNFPA is 
working directly with the Chinese Government to continue to 
emphasize the voluntary nature of their program.
    Mr. Smith. I'm almost out of time. Let me say very briefly, 
that is contested. And let me also say for everyone, we need to 
be considering the missing girls. Chai Ling, the great leader 
of the Tianneman Square, activist movement, who thankfully got 
out of China, she's running a group called All Girls Allowed, 
trying to raise the issue of the missing girls. One hundred 
million is one estimate. The disproportionate between males and 
females, completely attributable to the one-child policy. A 
terrible, terrible crime of gender.
    Mrs. Schmidt. Thank you very much to my good friend from 
New Jersey and to my other good friend from New Jersey--is this 
a New Jersey thing going on here?
    Mr. Sires, for 5 minutes.
    Mr. Sires. Thank you very much. You know for all the 
positives and the strengths of the U.N., I think it's 
overshadowed by its weaknesses and I'm not in favor of reducing 
money for the U.N., but I'll tell you, I'm getting very close.
    As I look at this Human Rights Council, I'm a Cuban-
American. I lived in Cuba until I was 11 years old. I saw Che 
Guevara set up the firing squads. I see what's going on with 
the prisoners in jail. I saw Orlando Zapata die. I read all 
about it. I read what they do to the Women in White. I see what 
they do with Israel. I see that we have Alan Gross in jail for 
over a year. And the resolutions don't seem to come up. And 
what is the answer to reform? What do they do? They elect the 
Ambassador from Cuba as vice president of the council.
    My friends, it's not that we need reform. It's broken. You 
should throw it in the East River the whole committee. I mean 
it is just shameful that you have a Human Rights Commission 
that elects these people and all they do is beat up on the only 
democracy that we have and make a mockery of the human rights 
conditions in Cuba.
    So when you talk about reform, it is just so dysfunctional. 
It's so shameful. I don't even know how they can sit in a 
committee and have the Vice President talk about human rights.
    I believe they crank up the propaganda machine, 128 
counties on any resolution, they vote against the interests of 
the United States all the time. So I guess I am frustrated as 
my colleague from New Jersey is. It's turning into a tool to 
beat up on this country. It's turning into a tool to protect 
themselves from criticism on human rights, so how do you reform 
it? Can anybody tell me? Other than--and I'm not advocating 
taking the money away, but I tell you, I'm getting very close.
    Peter, my friend?
    Mr. Yeo. Thank you for your question. Obviously, Cuba's 
human rights record, I couldn't agree with you more in terms of 
how dismal it is. I would just note though that since the 
United States has rejoined the council, Cuban influence over 
certain decisions has decreased significantly and in fact, Cuba 
opposed the creation of a special rapporteur in terms of 
freedom of assembly and was overruled on that move.
    Second of all, since the United States has rejoined the 
council, the council itself has spoken out on important human 
rights issues around the world, and has done so even over Cuban 
objections and the objections of other countries. By being at 
the table, the United States can stand up for our allies, can 
stand up for human rights. If we're not there, our voice goes 
away. And so the United States is an imperative to use the 
Human Rights Council as a way for us to stand up for human 
rights and for us to stand up for democracy.
    Mr. Sires. Mr. Schaefer, will you comment on that?
    Mr. Schaefer. The council hasn't passed a resolution on 
Cuba.
    Mr. Sires. I've been a rights advocate for 48 years and I 
never heard a resolution yet.
    Mr. Schaefer. The human rights advocates that go before the 
council are repeatedly abused and interrupted, intimidating 
them from speaking freely by Cuba and its allies on the 
council. The council is broken and a big part of the problem is 
the membership. The membership needs to change. There is a 
review that is mandatory this year for considering reforms to 
the council to try and improve it. And there needs to be 
serious membership criteria to keep countries like Cuba from 
getting on the council and influencing unduly its agenda.
    Mr. Sires. How do you do that when they have so much 
influence, some of these other countries? How do you keep these 
people away from this committee?
    Mr. Schaefer. Well, one way to do it is to force regional 
groups to offer competitive slates. I'm not saying that Cuba 
wouldn't get elected, but if there is actually a competitive 
election the chances of Cuba getting elected are diminished, 
and other countries with reprehensible human rights records as 
well.
    Mr. Sires. This is an election that elected the Vice 
President. This reminds me of the election in Cuba. Castro gets 
98 percent of the vote, but nobody else runs.
    Mr. Schaefer. If you take a look at the elections they 
have, most regional groups offer clean slates, meaning the only 
number of candidates that are open slots on the council are put 
forward. And so essentially it's a rigged election. You need to 
have competition so that viable candidates with better human 
rights records are on the ballot and hopefully they would draw 
more support.
    Another thing is that the Human Rights Council is funded 
through the U.N. regular budget so it's an assessed 
contribution. The U.S. can symbolically withhold the U.S. 
proportional amount of that, but it gets spread throughout the 
U.N. regular budget and so the council never really feels it. 
We need to spin those types of activities out of the U.N. 
regular budget so that if Congress is upset with the conduct of 
the council or its actions, it can directly target the council 
itself for the financial leverage that it has available to it.
    Mr. Sires. Thank you very much. Thank you for your time.
    Mrs. Schmidt. Thank you very much. And now I will turn to 
my good friend from California on the Subcommittee on Oversight 
and Investigations, the chairman. It's your turn, sir.
    Mr. Rohrabacher. Thank you very much. I've been trying to 
get a handle on how much money we're talking about. One of you 
referenced that it was--when you take a look at the overall 
picture and the very different things that we're talking about 
are part of the U.N. that was close to $5 billion. What are we 
talking about here? How much are we spending--or how much is 
the budget of all of these U.N.--yes?
    Mr. Schaefer. Congressman, that's an excellent question and 
to be honest with you, nobody really had an answer until fairly 
recently. Congress actually mandated that OMB consolidate all 
of the monies that the United States gives to the United 
Nations' organizations in general and the first report on that 
was produced by OMB in 2005. The most recent report by OMB said 
that the United States gave total $6.3-plus billion to the 
United Nations' system in 2009. The legislation----
    Mr. Rohrabacher. Excuse me, is that what the United States 
gave or is that the budget for all----
    Mr. Schaefer. That's what the United States gave in 2009.
    Mr. Rohrabacher. Oh.
    Mr. Schaefer. The best estimate I've seen for the entire 
U.N. system including regular budget and extra budgetary 
figures was $36 billion and that was produced in the U.N. 
report in 2010.
    Mr. Rohrabacher. Okay, and anyone else on the panel have 
more to add to that?
    Mr. Yeo. I would just add that in terms of U.S. 
contributions, the 2.1 that is sent every year in terms of our 
assessed contributions to peacekeeping is all done with 
American approval through the concept of the Security Council.
    Mr. Rohrabacher. Yes, through the Security Council which 
also I might add China has a veto over anything that can be 
done from the Security Council. So let's add that to America's 
approval.
    Yes, ma'am?
    Ms. Rosett. The answer is actually nobody knows. If you 
call the Secretariat which I do periodically and ask them what 
is the U.N. system-wide budget, the answer they do not even 
systematically keep track. And different agencies take in 
different amounts. The OMB figures are missing some items. So 
even the U.S. $6.3 billion answer isn't obvious.
    Mr. Rohrabacher. All right.
    Ms. Rosett. The U.N. has gone in for public/private 
partnerships, trust funds. That's why I'm saying what is needed 
is a consolidated, clear database that really tells you not 
just what they're budgeting but what they're spending, because 
right now--some years ago, former chairman Henry Hyde said he 
could not get a handle on the total budget.
    Mr. Rohrabacher. Let's just note that the chairman of this 
committee told us earlier, Mr. Berman, that he didn't even know 
about these regional U.N. operations and he's chairman of the 
Foreign Affairs Committee, for Pete's sake. I would say that 
we've got some work to do if we're going to be representing the 
interest of the American people. So maybe $6.3 billion, maybe 
more, out of a possible $36 billion budget--how much of that is 
of the $36 billion is China paying?
    Yes, ma'am?
    Ms. Rosett. They pay about a tenth of what the United 
States pays in assessed dues. For the rest, again, we simply 
don't know. If you ask for a consolidated statement, you can't 
get it. Each agency is supposed to keep track in itself. The 
agencies are opaque. There's no way to know.
    Mr. Rohrabacher. Let me just note with the answers we just 
got there is a global fund that fights AIDS, for example. And 
the United States has spent in the last 8 years, $4.3 billion. 
This isn't a U.N. agency. That's not even included in the $36 
billion. So we spent $4.3 billion, that's 28 percent of all the 
contributions, similar to what we're doing. Yet, China has 
given $16 million to the fund. Let us note for just that fund, 
China has received $1 billion while contributing $16 million 
and let me just note that they've only had 38 cases a year of 
malaria and AIDS--or malaria, which is the malaria money that 
we're talking about that while the Congo has massive death from 
malaria, it received just $149 million to combat malaria is 
what China received, and the Congo which has massive problem, 
received $122 million.
    So in other words, you've got this big country, China, who 
is not contributing very much and receiving great benefits from 
these U.N. programs. We can't put up with that. This is absurd. 
When we have a $1.5 trillion deficit in this country, we're not 
going to put up with any more. What we're doing is loaning--
we're taking loans from China in order to give to U.N. programs 
that then are being ripped off by China. This has got to stop 
and I would say, Madam Chairman, that the U.N. should be one of 
our prime targets for reducing expenditures in order to bring 
down this deficit in our next few years. Thank you very much.
    Mrs. Schmidt. Thank you very much. And now I'd like to turn 
this over to Mr. Ted Deutch from Florida.
    Mr. Deutch. Thank you, Madam Chair. I'd like to follow up 
on where the ranking member left off, that is, the Human Rights 
Council and the United States role. The U.S. on a positive 
note, the United States helped block Iran's membership in the 
Human Rights Council and the United States helped mobilize a 
statement condemning repression in Iran, but I'd like to 
understand the process a little bit.
    How is it that of the 50 resolutions, Mr. Neuer, that 
condemned countries, 35 condemned Israel? Where do they 
originate? And ultimately, I'd like to talk about how we reform 
that. But if you could speak to that, please?
    Mr. Neuer. Sure, thank you. The resolutions, the 35 on 
Israel, for example, are all, as far as I can recall, 
introduced by the Islamic group and the Arab group at the Human 
Rights Council. They control an automatic majority. Of the 47 
Member States, approximately 30 will approve anything that is 
introduced by these groups. The resolution could propose that 
the earth is flat and that resolution would be adopted by 30 
votes out of 47. So the moment anything happens in the Middle 
East, or doesn't happen, these resolutions are being introduced 
and adopted automatically. And that's the problem.
    There's an automatic majority that is dominated by 
repressive regimes. There are countries who vote for them that 
are not repressive regimes, countries like India. That's a 
democracy, for example, or South Africa. Regrettably, they 
continue to vote along dynamics that are either consistent with 
the non-aligned movement, the anti-Colonial, anti-Western 
ideologies and so we have this majority.
    The question is, how can we stop it? And the answer in the 
near term is that we cannot stop these resolutions and it is 
almost impossible to pass a resolution. As we heard before, the 
situation in Cuba, an organization, Human Rights Watch, has 
worked with victims from Cuba, like Nestor Rodgriguez Lobaina 
who has been beaten up and was denied permission to attend a 
human rights summit that we organized last year. It's 
impossible to pass a resolution on these situations.
    However, and this is a critical point, we spoke here today 
about the power of the purse. Well, at the U.N. that resides in 
New York and the General Assembly. Geneva Human Rights Council 
has the power of shame. It is very significant. It is the power 
to turn an international spotlight on some of the worst abuses 
of the world that would otherwise go hidden and to help victims 
who have no independent voice, no freedom of the press, or free 
Parliament, or free judiciary. And what we have not seen is a 
determined effort by the democracies, the United States, the 
European Union, and others, to introduce resolutions even if we 
know they're going to fail. And being in the opposition, as 
members here will know, has a lot of tools.
    And what we want to see is resolutions introduced on Iran, 
on Cuba, on China, on Zimbabwe. Even if they fail, the 
attention, the diplomatic energy and commotion that is 
generated would have, in our view, the same effect and would 
take the offensive and put the worst abusers on the defense.
    Mr. Deutch. Is there some history of that? Are there 
resolutions that have been proposed and rejected that would 
further our human rights agenda?
    Mr. Neuer. Not at the Human Rights Council, but previously 
at the Human Rights Commission under the Bush administration 
this did happen. There were resolutions introduced on China, on 
Zimbabwe that failed. And in our view, had a positive effect.
    Mr. Deutch. In the short time left, Mr. Schaefer, you 
talked about membership standards. I'm intrigued. I think that 
would permit us to have a frank discussion about the nature of 
the nations that are making determinations about human rights 
standards throughout the world. Can you elaborate a bit?
    Mr. Schaefer. Sure. The resolution that created the U.N. 
Human Rights Council said that countries have to submit a 
declaration of their dedication to human rights. So you have 
this farcical process wherein China or Iran submit their human 
rights bona fides to the United Nations General Assembly saying 
why they deserve to be elected to the U.N. Human Rights Council 
and no one pays attention to it. I think that there needs to be 
an outside evaluation of that, perhaps by NGOs, Freedom House, 
some other organizations could take a look at that and give an 
assessment, an objective assessment of the actual grades and 
hopefully, that could influence the process. Perhaps if you 
move away from a secret ballot to a recorded vote on some of 
these things you may actually see some changes in votes, but 
the key thing, I think, is moving to a competitive election, 
rather than a clean slate election wherein countries are just 
locked into it.
    Mr. Deutch. I only have a few seconds. Could you speak 
though to the credentials that China, for example, would have 
put forth to justify its membership?
    Mr. Schaefer. It said that it had freedom of assembly. It 
said that it was a democracy. It said that they respected 
freedom of the press. I mean you can go----
    Mr. Deutch. Iran as well?
    Mr. Schaefer. Iran as well, all across the board. These 
countries basically say they espouse the fundamental freedoms 
endorsed in the U.N. charter and in the universal declaration 
because that is the criteria you're supposed to meet in terms 
of being eligible for a council seat.
    Mr. Deutch. Thank you very much. Thank you, Madam Chair.
    Mrs. Schmidt. Thank you, and now I'd like to give 5 minutes 
to my esteemed colleague from southern Ohio, Steve Chabot, 
Subcommittee on Middle East and South Asia, chairman.
    Mr. Chabot. Thank you, Madam Chairwoman. Before I get in a 
couple of questions, I want to tell you a personal thing that 
happened. For a year, I was the Republican representative from 
Congress to the United Nations. Each year we have one 
Republican and one Democrat. And it was the year after 2001, 
coincidentally. And we happen to be at the U.N. and the topic 
for discussion at this U.N. event was human trafficking and 
international child abduction and that sort of thing. And we 
spent a lot of the day in meetings all over the place. Well, it 
turned out even though that was supposed to be the topic, most 
of our U.N. diplomats spent most of the day behind the scenes 
trying to prevent the Arab bloc from kicking Israel out of the 
conference. And it seemed to be apparently just a typical day 
at the U.N.
    The U.N. needs to be completely overhauled. We talked about 
this, the Human Rights Council and you have Cuba and Libya and 
the rest of them on there, probably the world's worst abusers 
of human rights and I think number one, relative to our dues, 
we shouldn't give a penny to the U.N. until they disband that 
Human Rights Council and completely overhaul it and completely 
reform it. That's just one member's up here view.
    But let me get to a couple of questions. The U.N. 
Humanitarian Agency for Palestinian Refugees, UNRWA, refuses to 
vet its staff for aid recipients for ties to terrorist groups. 
It doesn't even think Hamas is a terrorist organization. It 
engages in anti-Israel and pro-Hamas propaganda and banks with 
Syrian institutions designated under the USA Patriot Act for 
terror financing and money laundering. Why is the United States 
still the largest single donor? Why have we given them about 
$0.5 billion in the last 2 years alone? Why hasn't the United 
States publicly criticized UNRWA for these problems and 
withheld funding until it reforms, given that Hamas controls 
security in Gaza and that Hamas has confiscated UNRWA aid 
packages in the past? How can we possibly guarantee that U.S. 
contributions to UNRWA will not end up in Hamas' hands?
    And I'd invite any, maybe two folks on the panel to take 
this before I get to my last question.
    Yes, Ms. Rosett?
    Ms. Rosett. You can't guarantee it. In fact, it does. A 
conversation I had with someone--UNRWA is headquartered in Gaza 
and basically provides support services for what has become a 
terrorist enclave. So they've actually created a terrorist 
welfare enclave there. And I asked, ``How do you vet your staff 
to make sure that they are not terrorist members of Hamas?'' 
The answer I was given was, ``We check them against the U.N. 
1267 list.'' That sounds very impressive, unless you happen to 
know that the 1267 list is al-Qaeda which is maybe a problem in 
Gaza, but it's not the main problem. The problem is Hamas.
    The U.N. has no definition of terrorist. Therefore, what 
that means is it does not recognize Hamas or Hezbollah as 
terrorists. In other words, there really is no way. They don't 
check--in order for you to check, you would have to ask for a 
full accounting of who exactly is spending the money in Gaza. 
And may I just say in looking at the things that do come out of 
UNRWA that are visible, I pondered--I came across UNICEF 
country appeal in which they were asking donations from inside 
Iran for a Gaza appeal. Remember, Iranian-back terrorist Hamas 
runs Gaza where UNRWA is headquartered.
    Mr. Chabot. Let me go to my last question. I appreciate the 
response.
    Ms. Rosett. Sure.
    Mr. Chabot. In September, the United Nations is scheduled 
to hold an anniversary celebration of the infamous Durban 
Conference on racism, taking place only days after the tenth 
anniversary of the September 11th attacks on this nation. This 
Durban III Conference is likely to feature the same hateful, 
anti-American, and anti-Israel rhetoric that characterized the 
previous two conferences. Canada and Israel have both announced 
that they will not attend, but the U.S. administration has 
refused to announce a boycott of the event.
    Shouldn't the United States immediately join Israel and 
Canada in announcing that it will not participate in or support 
Durban III and isn't there no hope that the conference will 
address real issues of racism, given that it would be 
commemorating the biased Durban declaration of 2001? And 
shouldn't we finally give up on this failed Durban process and 
seek credible alternatives?
    I've got 30 seconds, so yes, sir.
    Mr. Schaefer. I think that that's entirely likely. In fact, 
the Obama administration boycotted the Durban II conference 
because of concern that it was not going to be addressing the 
issues in an unbiased fashion in regards to Israel. And that's 
likely to occur again. I'm kind of startled that they haven't 
made a strong statement in that regard and announced a boycott 
already.
    One thing I will mention is that conference and UNRWA also 
received money through the U.N. regular budget, so it's 
assessed, and the U.S. withholding is extremely impeded by this 
assessed process. If we decide to withhold our proportional 
amount to UNRWA or to this conference from the U.N. regular 
budget, again it gets spread around and therefore the U.S. 
target of that withholding is insulated from that effort.
    Mr. Chabot. Thank you.
    Mr. Schaefer. So we need to spin these activities outside 
and have them be voluntarily funded.
    Mr. Chabot. Thank you.
    Mrs. Schmidt. And now I'd like to turn to my good friend 
from Rhode Island, Mr. Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Madam Chair. I want to first 
associate myself with the remarks of our ranking member and 
recognizing that we have much work to do in reforming the 
United Nations and thank him for identifying some of those 
issues. I think we all recognize we live in an increasingly 
complex and interconnected world with a growing global economy 
and so I think we have a responsibility to figure out how we 
strengthen and improve the operations of the United Nations.
    And one of the areas, the question I want to ask relates to 
the peacekeeping function of the United Nations, recognizing 
that the United Nations peacekeepers are in 14 of the most 
dangerous places in the world and has the second largest 
deployed military presence in the world. And looking at kind of 
the costs because a lot of this conversation is about costs. We 
spent in this country in 2010 $70 billion in Afghanistan and 
over the last 10 years we've spent over $1 trillion in Iraq and 
Afghanistan.
    There was a GAO study that said that the U.N. is eight 
times less expensive than if the U.S. were to do much of this 
work unilaterally. The RAND Corporation said that the U.N. has 
been effective as a peacekeeping force. And so in light of that 
and in light of the fact that under both President Bush, both 
Democrat and Republican administrations, there seems to have 
been an increased number of missions in terms of the 
peacekeeping function.
    I just wanted to hear from the witnesses about, you know, 
are there improvements that need to be made in that area? It 
seems to be effective, certainly cost effective in terms of 
what we would spend if we were to engage in unilateral action 
and are there--so is there some consensus on the panel that 
that's a function that is bringing peace to the world, doing it 
in a cost efficient way and that it isn't as if we do nothing? 
We'd have to respond to some of these issues and at a cost 
sometimes eight times as expensive. Is that a fair analysis?
    Mr. Yeo. Thank you, Congressman, for your question. I would 
say that first of all there is room for improvement in terms of 
peacekeeping. The Secretary-General has launched a 5-year 
strategy to ensure that we better have the capability to launch 
peacekeeping missions quickly and that the cost associated with 
running the missions are shared between missions through 
regional centers so there are concrete measures that are being 
considered that we can move forward with to make the missions 
themselves more efficient and more cost effective.
    The other point I would note is that the U.N. does have 
strong special political missions in Afghanistan and Iraq. And 
as we think about our extensive involvement in both of those 
countries and the presence of American troops, the U.N. will be 
there for a decade to come, working with the governments, 
promoting peace and stability and security so that when 
American troops come home, we leave behind strong and effective 
governments that can combat terrorism in both of those 
countries. And I think that that's an important role for the 
U.N. to play moving forward. Thank you.
    Mr. Schaefer. The U.N. peacekeeping operations often 
support U.S. interests. There's nobody, I don't think, that 
would deny that characterization. But I think that the analysis 
that was provided by the studies is subject to an inherent 
assumption that I don't think is true. That is the assumption 
that the United States would be conducting these operations if 
the U.N. weren't. I don't think that that's necessarily the 
case. I think that the decision would go to U.S. interests. But 
that being said, the U.N. operations there often do support 
U.S. interests, if not U.S. core interests that would lead to a 
U.S. direct intervention.
    But U.N. peacekeeping also has a number of flaws and there 
are a number of things that need to be addressed substantially. 
An OIOS report audit of $1 billion in U.N. peacekeeping found 
that over a quarter of it, $265 million was subject to waste, 
corruption, fraud, and abuse. A 2007 OIOS report examined $1.4 
billion in peacekeeping contracts and turned up significant 
corruption schemes that tainted $619 million or over 40 percent 
of that amount in terms of the contracts due to corruption.
    An audit of the United States mission in Sudan revealed 
tens of millions of dollars lost to mismanagement, waste, and 
substantial indications of fraud and corruption. So there is a 
lot that needs to be done here and not enough has been done to 
address these problems.
    And on the issue of sexual abuse and misconduct, all too 
often the U.N. fails to hold these individuals to account for 
their sexual misconduct and their criminality. They are often 
sent home, but very, very rarely are cases pursued or 
individuals brought to trial or punished for their crimes.
    Mr. Cicilline. Thank you. I yield back the balance of my 
time.
    Mrs. Schmidt. Thank you. Now I'd like to give 5 minutes to 
the gentleman from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairman. First off, let me 
say that I appreciate the comments made by the distinguished 
gentleman from New Jersey, Mr. Smith, and I thank him for the 
passion with which he makes them. It hit home with me and 
actually answered one of the questions that I was going to 
address the panel.
    So let's turn back to the budgeting and financing issues, 
and I want to address my comments to Mr. Schaefer first. I 
agree with many of the members and presenters here today that 
reforms in U.N. financing and budget is an absolute necessity. 
I think that we must ensure as Congress and stewards of 
taxpayer dollars that they are well spent and well accounted 
for.
    So given the level of support that the United States gives 
to the U.N. and taken with the relatively small amount 
contributed by other Member States, could you address the 
possibility of a weighted voting system which would assure that 
the U.S. has more input on how taxpayer dollars are spent? I 
know you addressed those in your comments, but I'd like to have 
those on the record.
    Mr. Schaefer. There are a number of different options that 
could be explored in terms of giving major contributors more 
influence over U.N. budgetary decisions. In the 1980s, 
congressional legislation led the U.S. to seek weighted voting 
on U.N. budgetary matters so that if the U.S. pays 22 percent 
of the U.N. regular budget, it would have 22 percent of the 
weighted vote in terms of approving that budget. That was 
opposed by the U.N., but the Reagan administration succeeded in 
getting what was a compromise wherein the U.N. budget would 
only be adopted by a consensus vote. Through that process and 
the U.S. policy of a zero nominal growth budget, the United 
States was able to oppose budget increases and constrain U.N. 
budget growth in the late 1980s and 1990s. But it wasn't 
actually able to reduce things because even though the U.S. 
could stop an increase, other countries could stop a reduction. 
And so you essentially had a tug of war that kept things at a 
status quo. That consensus-based agreement, the informal 
agreement of adopting the budget by consensus has been 
shattered in recent years.
    The U.S. presented a number of proposals for reducing the 
U.N. budget and eventually a budget was proposed that the U.S. 
opposed. It voted no. And that budget was approved over the 
objection of the United States and so that consensus process no 
longer exists. And the U.N. could do this without any kind of 
repercussions because the teeth behind the consensus-voting 
agreement was legislation that said if the U.N. adopted a 
budget over the objection of the United States or without those 
processes in place, it would be subject to financial 
withholding. That legislation was removed in the early 1990s 
and so now there are no repercussion for doing that.
    So even though the consensus budget was successful in a 
certain way in terms of constraining the U.N. budget growth, it 
wasn't successful in what we would like to do, I think, in 
terms of trying to go through the U.N. budget and eliminate 
funding for duplicative or outdated mandates and spinning 
certain things out of the U.N. budget.
    So I would do a couple of things. First, I would try and 
seek a dual key approval of the U.N. budget, one approval by 
two-thirds of the U.N. Member States, but also requiring two-
thirds approval of the contributions to the U.N. regular 
budget. So you have major contributors having to approve the 
budget alongside the bulk of the U.N. Member States. But more 
importantly, I would focus on trying to spin as much of the 
independent activities of the U.N. out of the regular budget, 
so you just focus it on the core support of the U.N. 
Secretariat of the Security Council of the General Assembly of 
the International Court of Justice and so forth, the core 
organizations of the United Nations. And spin out activities 
like the Human Rights Council and the regional commissions, the 
various human rights committees, UNEP, UNRWA, all these other 
organizations that are funded through U.N. regular budget and 
have them be funded voluntarily. That gives Congress much more 
discretion in terms of financing programs that it thinks 
support U.S. interests and withholding funding from programs 
that do not.
    Mr. Duncan. Thank you. In the balance of my time, I'd like 
to ask quickly, Ms. Rosett. You made a statement a minute ago 
that struck me that we don't have a good accounting of how the 
money is spent.
    What's the process of getting that started? I think 
congressional oversight would like to see a detailed accounting 
of the number spent in the U.N.
    Ms. Rosett. You would have to find a way to get the U.N. to 
actually put it in and produce. I would say the more specific 
request or demand is made outlining what really has to be there 
the better, because if you leave it to their discretion, you 
will end up with the again, I refer you to the back of my 
written testimony, the sample one-page document disclosing 
nothing that pretends to be financial disclosure.
    You would probably have to hand them the template, here's 
what we want and what you will find--I'll give you one example. 
The U.N. flagship agency, the U.N. Development Program which 
was involved in the North Korea Cash-for-Kim scam. They have 
procurement Web sites which look--they have a main Web site 
which looks quite neat, if you just look at it, until you start 
looking for things that actually matter. For instance, start 
asking and what exactly did they ship into Iran last year with 
their U.N. immunities, this agency that shipped missile, dual 
use parts that could be used for missile production to North 
Korea and you won't find anything. You would need to specify 
what--exactly what you want to see and I would strongly 
recommend, we see U.N. budgets and even that is like 
deciphering Sanskrit.
    Mr. Duncan. Thank you.
    Ms. Rosett. You would need to ask spending.
    Mrs. Schmidt. Thank you. Now I'd like to give 5 minutes to 
the gentlelady from California, Mrs. Bass.
    Ms. Bass. Thank you very much and I'd like to thank the 
witnesses for taking their time to present testimony today. I'm 
struggling with the idea of the U.S. withholding funding and 
wanted to know if you could articulate a little more. We have 
done that in the past and I'd like for you to elaborate on how 
we were able to impact reforms when we withheld funding before. 
And then if we did do that, what does that do to our standing 
internationally?
    And if you think about the Iran sanctions that made it 
through the Security Council, if we were to withhold funding, 
then what kind of position would that put us in when we then 
obviously want the U.N. to have those sanctions? And maybe you 
have some other examples of how we could impact reforms that 
didn't involve withholding funds.
    Mr. Schaefer. I'd be happy to talk about that. My written 
testimony I actually go through a number of historical 
instances where Congress has used its financial leverage to get 
the United Nations to adopt specific reforms. One was the 
Kassebaum-Solomon amendment in the 1980s which led to the 
consensus-based voting process which helped constrain U.S. 
budget growth in the 1980s and 1990s. A second was 
congressional withholding, demanding that the U.N. create an 
Inspector General equivalent organization. That led directly to 
the creation of the Office of Internal Oversight Services in 
1994. And third was the Helms-Biden legislation wherein the 
United States agreed to pay U.S. arrears to the United Nations 
in return for certain specific reforms including reductions in 
the U.S. level of assessment for the regular budget and for 
peacekeeping. Under that agreement, the U.N. was supposed to 
reduce the U.S. peacekeeping assessment to 25 percent. It never 
reached that level, although it did get within 2 percentage 
points back in 2009. More recently, the U.N. has actually 
reversed pace and increased the U.S. assessment for U.N. 
peacekeeping to over 27.1 percent. So we're seeing some back 
tracking on the part of the U.N. in terms of the reforms that 
they agreed to in return for Helms-Biden. So you do see that 
there are specific pieces of congressional legislation and a 
specific response by the United Nations that is tied to that 
legislative effort.
    Other types of U.N. reform have been pursued, but often it 
is out of a fear that Congress may do something about the 
issue. For instance, the Volcker Commission was created to 
investigate the Iraqi Oil-for-Food Programme and that was 
created specifically because Congress was becoming very, very 
interested in pursuing the matter itself and so the U.N. took 
preemptive action and created the Commission. You could also 
say that U.N. peacekeeping rules and regulations, while 
insufficient still, were adopted in part because Congress was 
focusing through hearings and other pieces of legislation on 
that problem.
    I think Congress has a vital role to play for pressing for 
U.N. reform. In terms of how it affects our diplomacy, there's 
no doubt that pressing for budgetary cuts and U.N. reform 
ruffles feathers at the United Nations. They'd much rather 
spend their time focusing on other things. But that is a long-
term issue and U.S. administrations have historically focused 
on short-term political priorities, passing a resolution, 
getting something immediately done to address a more imminent 
problem from their perspective. Congress has a longer-term 
perspective on this and I think that's where they complement 
each other. Congress can play a bad cop role, the 
administration and State Department diplomats can play a good 
cop role. Having Congress playing the heavy can actually 
improve prospects for reform in the United Nations.
    Ms. Bass. So then you're not necessarily suggesting that we 
completely defund the U.N.?
    Mr. Schaefer. No.
    Ms. Bass. Just threaten?
    Mr. Schaefer. No. I think we should withhold to try to spur 
specific reforms, but I'm not saying withhold every single dime 
that we give to the United Nations. I think that a lot of the 
things that the U.N. does are very useful and support U.S. 
interests. But there's no doubt in my mind that a number of 
reforms that have been advocated in the past remain undone. 
Some talk has been made about the U.N. Ethics Office. Yes, they 
created a U.N. Ethics Office, but almost immediately the 
authority of that office was challenged by the United Nations 
Development Program. The Ethics Office found that UNDP's 
retaliation against a whistleblower was illegitimate, demanded 
UNDP to take certain actions to repair that issue. And UNDP 
rejected the authority of the U.N. Ethics Office. The 
Secretary-General, instead of backing his own Ethics Office, 
backed UNDP. Now you have divergent ethics standards throughout 
the U.N. system and NGOs that analyzed this issue say they're 
completely inadequate and weak compared to international 
standards.
    More recently, the OIOS official in charge of 
investigations was charged with retaliation against two 
whistleblowers himself and he also rejected the authority of 
the Ethics Office. So there's a question of whether the Ethics 
Office even has authority within the U.N. Secretariat.
    Ms. Bass. Thank you.
    Mrs. Schmidt. Thank you. And now I'd like to give 5 minutes 
to my good friend from California, Mr. Royce, of the 
Subcommittee on Terrorism and Nonproliferation.
    Mr. Royce. Brett, Mr. Schaefer, the case you were talking 
about, was that the North Korean case or the----
    Mr. Schaefer. In terms of UNDP----
    Mr. Royce. The example you just gave.
    Mr. Schaefer. Yes, it was.
    Mr. Royce. I'd like to ask Claudia, Claudia Rosett about 
this because she's reported for many years on this situation 
with respect to North Korea. One of the things I remember is 
talking to a defector from North Korea who had worked in the 
missile program. He said every time the regime ran short of 
hard currency it couldn't purchase on the market the equipment 
it needed for the missile technology, and had to wait until the 
regime could come up with more hard currency. The part that 
concerns me about this whole process is that $6 billion spent 
by the UNDP per year, and half of it goes to authoritarian 
regimes, according to Freedom House. We're learning more and 
more about how that money is spent in countries like Iran and 
Zimbabwe. We have concerns about how it's spent in Syria and 
Venezuela. But North Korea in particular is a case where if we 
thought that this currency was going for fine wine and sushi 
for the ``Dear Leader,'' it would be one thing, but the 
suspicions that the use of the hard currency and the 
documentary evidence, and that's what I'd like to get into here 
for a little bit with you Claudia, basically, it was a case of 
the checkbook for the UNDP being turned over to the regime.
    The CFO was picked by the regime. And when somebody blew 
the whistle on this, the UNDP unanimously, just as they have in 
every other case circled the wagons to basically try to cover 
this up. But North Korea was able to use the UNDP to procure 
dual use items in the name of development and then they got 
their hands on equipment that happens to also be used to 
develop and target and test missiles. And that's the part that 
really makes us wonder about the amount of contribution we made 
here in the United States, I think about $290 million a year or 
more than that. We're one of the top three donors into this 
program and yet we have no ability to get across to the UNDP 
that we're not going to finance our own suicide here by 
allowing hard currency to get in to the development of nuclear 
weapons or how to deliver them with missiles.
    The questions I'd ask Claudia is--I remember they 
temporarily shut this down and then it started right up. So how 
much money now is moving into North Korea? Is Kim Jong-Il still 
able to pick the CFO for this position? I don't know the answer 
to that. What's going on with the program today? How much do we 
know?
    Ms. Rosett. Well, once again we don't know enough. I will 
tell you a few things about the U.N. Development Program which 
ran this office in North Korea and is now running it again. Two 
years ago, its governing body at the U.N., a 36-member 
executive board was chaired by Iran. This was while Iran was 
having the murderous riots in the streets. Iran still sits on 
the board. When Cash-for-Kim broke, North Korea was sitting on 
the board. This is the flagship U.N. agency and so on.
    I am actually less concerned with the exact amount that 
is--of dollars that is going into this program in North Korea 
than with the abilities it gives the UNDP Office in Pyongyang 
and North Korea to bring in items or UNDP in Iran which we have 
no insight into right now. These places only become transparent 
when there's a major inquiry and it took more than 1\1/2\ years 
to pry out of the U.N. the information that finally told us 
that the UNDP had been bringing things like a satellite image 
receiving station into North Korea. North Korea is a starving, 
poor country. Certainly the people there need help. The 
government there puts the military first. You don't need to be 
bringing that kind of equipment in. That was clearly a North 
Korea shopping list which UNDP rushed to procure for them.
    One thing that Congress might do is ask the Bureau of 
Commerce to produce something I can't get. It's confidential. 
The export licenses for all U.N. purchasing abroad, because 
that will show you what the U.N. is requisitioning, at least in 
this country. You might get a glimpse. I venture to guess it 
would make your jaw drop. And it would be useful if other 
countries would produce similar lists.
    The point I think is really important to get across here is 
the U.N. is a brilliant machine for laundering goods and money 
across borders with no oversight. That needs looking at.
    Mr. Royce. We will do that, Madam Chair, this committee 
will do that and I appreciate the testimony of the panel.
    Mrs. Schmidt. Thank you. And now I would like to turn my 
attention to our good friend from Missouri, Mr. Carnahan.
    Mr. Carnahan. Thank you, Madam Chair, and I want to thank 
Madam Chair and ranking member for holding this hearing, our 
witnesses for being here. I believe it's very important that 
the United States is at the table at the U.N., at the table 
engaged in various international organizations. Even though the 
issues are complex, the parties are difficult and the 
bureaucracies entrenched at the U.N. I think we have to be 
looking at ways to best leverage the U.S. involvement and I 
think also the best exercise, congressional oversight. So I 
appreciate you all being part of this process.
    I wanted to ask Mr. Neuer, the Human Rights Council has 
properly come up in this discussion today. Last year, we had a 
hearing on the rise of anti-Semitism around the world and the 
council clearly came up in those conversations. There's been 
some very well directed and well founded criticisms of the 
council, but there also have been some successes and some 
improvements in the council with our involvement. I wanted to 
ask your assessment on the progress that's been made since we 
have rejoined and whether or not you think we could have made 
these improvements if we were not at the table. And do you 
think that were the U.S. to leave the council would that stymie 
further progress?
    Mr. Neuer. Thank you. The changes that have been made in 
our view have been mere specks on a radar screen for a 
situation that is abysmal. As I presented in my oral summary, 
in my written testimony, the state of human rights at the U.N. 
is a disaster at the Human Rights Council. And so in terms of 
U.S. involvement, as the ranking member read from my prepared 
statement, we certainly salute the determined efforts of the 
U.S. mission in Geneva. They are trying their best. They are 
doing what they can. They have tried to defend principles, to 
defend human rights groups who bring victims and so forth. 
There have been a number of resolutions which we welcome, on 
Ivory Coast recently, on Kyrgystan and on one or two others. 
These resolutions haven't had the strength of some other 
resolutions. They haven't all been condemnatory. The one on 
Kyrgystan, for example, was introduced regarding a situation 
that had happened under a previous government, so it wasn't 
necessarily the most courageous text in condemning a seated 
government and holding it accountable and that's been a pattern 
that we've seen on some resolutions that appear to be 
meaningful, but in fact, are critical of prior governments.
    So again, we encourage U.S. efforts and we want them to do 
far more. And as we've said, we still don't understand why 
nothing has been introduced on Iran. Actually, we've crunched 
the numbers. As you know, there is a resolution in General 
Assembly that is adopted each year. It's run by Canada. And it 
passes in the General Assembly in New York. And if you run the 
numbers, actually, in theory, if the missions in the Geneva 
would vote the same way, the 47 countries, you would have more 
yes votes than no votes. So actually with significant 
diplomacy, we could have a resolution on Iran that would pass. 
It wouldn't be easy.
    Why is it not being introduced? I don't know the answer to 
that question. I hope it will be introduced and I hope we'll 
see the creation of a special investigator on the massacres 
that have taken place in Iran. So to summarize, we have always 
supported robust engagement. UN Watch was founded by a former 
United States Ambassador, Morris Abram, who was a civil rights 
leader as well. We've always believed in the value of U.S. 
leadership and engagement and in our recommendations that we 
submitted here last year which was co-sponsored by bipartisan 
group, Representative Engel and Congresswoman Ros-Lehtinen, we 
set forth numerous recommendations for what the U.S. working in 
concert with the European allies need to do and fundamentally 
it's to take the offensive. It's not to allow the abusers to 
veto and to only introduce that which will pass. That will 
really limit it to countries of little influence. As I said, 
Iran, China, Syria, the list goes on, have all been ignored. 
That is something that is not satisfactory.
    Mr. Carnahan. Thank you. And quickly to go to Mr. Yeo, with 
regard to the Millennium Development Goals, your colleague, 
Kathy Calvin, testified last year at our hearing. I'd like to 
hear your thoughts on how the U.N. can best partner with the 
private sector and what U.S. engagement has meant to those 
efforts.
    Mr. Yeo. Sure. I would say that as we think about shrinking 
national budgets for foreign aid and foreign assistance, 
public-private partnerships, including corporations around the 
world who wish to support the NDGs' and the U.N.'s work, are 
very important. It's something that we try to facilitate at 
UNF. Thank you.
    Mr. Carnahan. Thank you.
    Mrs. Schmidt. Thank you. And now I'd like to give 5 minutes 
to my good friend from North Carolina, Mrs. Ellmers.
    Ms. Ellmers. Thank you, Madam Chairman, and thank you, 
panel, for being with us today.
    I just want to ask my questions in regard to some of the 
corruption issues and I'm going to address my question to Mr. 
Appleton. But I would like to state this. You just understand 
the concerns of the American people, the hard-working taxpayers 
who are the ones who are funding you, the U.N. And when it 
comes to these issues of corruption and misconduct, it's hard 
for us and I can tell, I know, I can tell you the people of 
North Carolina District 2 are very concerned about this issue.
    So again, to Mr. Appleton, you tried to oversee and help 
reform the U.N. and uncover over $1 billion in tainted 
contracts. And as thanks, you got fired and blocked from being 
hired for further jobs there. And many of your cases remain 
open and unaddressed at this time. Is this what generally 
happens when a U.N. investigator takes this course? And can you 
discuss with us today what happened to your appointment to be 
the lead investigator at the U.N.'s Office of Internal 
Oversight Services?
    Mr. Appleton. Thank you very much. I'm honored to have been 
asked to appear. I think in 3 minutes it's tough to describe 
the overall dynamic of oversight in the U.N. and conducting 
investigations, but I'll give it a shot.
    I think conducting true, real, deep investigations to 
ferret out the actual facts and circumstances is not a best way 
of career advancement in the U.N. And the reason why I think 
you'll see a number of Inspector General-type offices in many 
of these international organizations that do not--aren't very 
aggressive because you can see what happens. You do not make a 
lot of friends. And if you pick the wrong subject, it could 
have very fatal consequences.
    So what's critical for oversight in the U.N. is complete 
independence, not just operational independence, but budgetary 
independence. So ultimately, your funding is not at risk, your 
career is not at risk, your job is not at risk. Because 
otherwise, if it is, what advantage is it for you to pursue 
real, honest and objective investigations?
    So historically, I think I would agree with some of what 
Mr. Schaefer said about focus of this Congress. And when there 
is focus it can happen properly. There are episodes where 
sometimes privileges and immunities have been waived and cases 
have been advanced, but if there isn't an eye and a focus and 
attention on the issues, they're not, in my experience, not 
going to advance. You've got to have will and you've got to 
have an apparatus and machinery that protects investigators 
from retaliation and I'm not saying you don't hold them to a 
certain standard. There's no question. The investigations have 
to be genuine, integrous, unbiased. No question about that.
    And I think the way to challenge them is through a judicial 
mechanism that is properly functioning, so you need all these 
apparatus. A strong and effective independent oversight office 
has to be complemented and supplemented by an effective ethics 
office, a sound, judicial machinery, an effective appeals 
process, and effective sanctions and penalty regime. So all of 
that needs to be put in place. What had been started it seemed 
to have faltered and going into reverse. So the way in which 
the dynamic is it does not set the atmosphere for thorough and 
deep and intense inquiries.
    With respect to my own situation, I guess I would 
respectfully say that because the case is in the judicial 
system I really can't speak too much about it other than the 
fact that this was an example of a lack of independence of the 
Under Secretary-General who attempted to--went through proper 
procedures, conducted a recruitment exercise, presented my 
nomination and it was not accepted. So the argument certainly 
is and she's a forceful advocate of this that there's a real 
example of a lack of true independence in oversight. You need 
to be able to appoint your own staff. Thank you.
    Mrs. Schmidt. Thank you. And now I'd like to give 5 minutes 
to my good friend from Nebraska, Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair, for the time. 
Thank you all for coming today. Given the drama of the 
institution, perhaps we could start a new reality TV show and 
call it the U.N. Makeover or something like that.
    With that said and seriously, let me say I think it's 
important for the United States to belong to multi-lateral 
institutions. The world is complex, but without some platforms 
for the development of mutual understanding we could be in a 
worse off situation in spite of the effrontery that we 
sometimes have to endure in this particular multi-lateral 
entity.
    With that said, I'd like to point out what I perceive to be 
some of the U.N. strengths and I think some of you spoke to 
this. Perhaps you could confirm that. And then I'd like to try 
to unpack further the reforms that could be engaged that would 
actually strengthen the part of the institution that makes 
sense, but either jettison or rethink the other components that 
are causing such serious problems.
    I was in the country of Liberia a little while back and had 
a one-on-one chat with a U.N. peacekeeper, a Nigerian who was 
in a blue helmet, way out on an outpost in the interior of the 
country. He was very well informed as to what his mission was 
and how he would carry it out and I was impressed. And it does 
seem to me that the U.N. peacekeeping forces around the world 
provide a stabilization factor, sometimes imperfectly, but a 
stabilization factor. That is very important.
    Secondly, the U.N. is very well positioned to provide 
humanitarian outreach, particularly in crisis times and I think 
that's very important work and it seems to be a strength of the 
institution.
    Now with that said, we've talked about a lot of the other 
difficulties, one being the Human Rights Council. Since the 
United States has joined, we've not even offered a resolution 
condemning the human rights abuses of China and Cuba. And so 
with that said, how can we unpack this further that looks at 
the institution from the portions of it that are really viable, 
potentially reforms or gets us away from or shames or withholds 
money as you suggested, Ms. Rosett, in the areas that again 
give real effrontery?
    And third is, are there other multi-lateral institutions 
that can begin to replace that which cannot be reformed in the 
internal dynamics of the institution? Yes.
    Ms. Rosett. The internal dynamics have a certain 
mathematics and logic where it would be nice to believe, for 
instance, that the Human Rights Council can be sort of brought 
around like a super tanker. But if you actually look at the 
makeup of the General Assembly, we need to wait until the 
change of the character of the majority of nations on the 
planet before that actually happens. And the essence of success 
in the modern world really is competition and I think turning 
to some alternative grouping in which you are not obliged to 
haggle with Cuba and Russia and China over how to define human 
rights is something that might be very productive and at the 
end of the day would also honor the people whose rights you're 
actually trying to protect. Because as you know, on the ground 
it translates into complete abandonment. These things that 
sound academic when they're discussed in the council, talk to 
people from Zimbabwe who live under the kinds of rules that 
need to be addressed.
    So competition makes a great difference. One other note----
    Mr. Fortenberry. Do you see any current institution that 
might fulfill that role or some emerging fledgling institution 
that could do that in the near term?
    Ms. Rosett. Absolutely, where you are not constrained by 
the U.N. membership problems. One other note, peacekeeping also 
can have the very dangerous, dangerous drawback, that it sounds 
as if something is being done. At the moment, the ramped up 
UNIFIL mission in Lebanon, the peacekeepers in Lebanon who 
remember were needing rescue from their bunkers after Hezbollah 
built up weapons nests around----
    Mr. Fortenberry. I said albeit imperfectly.
    Ms. Rosett. They're re-arming again. And I think it is a 
question that needs to be very seriously asked, is it more 
dangerous to have them there giving the illusion that they are 
protecting things, waiting until the next rescue.
    Mr. Fortenberry. Thank you, I'm sorry, I've run out of 
time.
    Mr. Schaefer. I think it's just important to note that the 
U.N. is not the only multi-lateral option and that multi-
lateral activities are not legitimate only if they go through 
the United Nations. Take a look at an organization like the 
Proliferation Security Initiative which was introduced by the 
Bush administration to counter trafficking in weapons of mass 
destruction. If you take a look at ad hoc interventions by the 
African Union, by NATO forces around the world, you can do 
peacekeeping, you can do interventions outside of the U.N. 
framework.
    And if the reforms are not adopted to implement membership 
standards for the Human Rights Council, I think the U.S. and 
other countries should seriously consider creating a non-U.N. 
human rights body so that you can keep human rights violators 
off of that body and really dig into the human rights issues 
and confront human rights abusers.
    Mr. Fortenberry. That may be the answer here. I'm sorry, 
I'm out of time. Thank you.
    Mr. Fortenberry. Thank you and without objection, the full 
written statements of all of our briefers will be made as part 
of the record. Members have up to 5 days to submit their 
statements for the record and to my good friend from 
California, do you have any more witnesses, sir?
    Mr. Berman. I do, but I didn't bring them with me.
    Mrs. Schmidt. Thank you. In the full interest, do we have 
any more witnesses in the back room? Can somebody check before 
I gavel this down?
    Mr. Berman. Members?
    Mrs. Schmidt. Members, I mean. I'm new at this. No more 
members, all right. This briefing is now closed and again, 
members have up to 5 days for written statements and your 
prepared remarks as well. Thank you very much gentleman and 
lady for your attention in this matter.
    [Whereupon, at 12:16 p.m., the briefing was concluded.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Briefing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
